<html>
<title> - DOJ OIG FISA REPORT: METHODOLOGY, SCOPE, AND FINDINGS</title>
<body><pre>[Senate Hearing 116-396]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 116-396
 
         DOJ OIG FISA REPORT: METHODOLOGY, SCOPE, AND FINDINGS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS


                             FIRST SESSION

                               __________

                           DECEMBER 18, 2019

                               __________

        Available via the World Wide Web: http://www.govinfo.gov
        

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
        
                  U.S. GOVERNMENT PUBLISHING OFFICE 
40-971 PDF              WASHINGTON : 2021         
 
 
        
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
ROB PORTMAN, Ohio                    GARY C. PETERS, Michigan
RAND PAUL, Kentucky                  THOMAS R. CARPER, Delaware
JAMES LANKFORD, Oklahoma             MAGGIE HASSAN, New Hampshire
MITT ROMNEY, Utah                    KAMALA D. HARRIS, California
RICK SCOTT, Florida                  KYRSTEN SINEMA, Arizona
MICHAEL B. ENZI, Wyoming             JACKY ROSEN, Nevada
JOSH HAWLEY, Missouri



                Gabrielle D'Adamo Singer, Staff Director
                   Joseph C. Folio III, Chief Counsel
                  Brian M. Downey, Senior Investigator
          Scott D. Wittmann, Senior Professional Staff Member
               David M. Weinberg, Minority Staff Director
               Zachary I. Schram, Minority Chief Counsel
                    Roy S. Awabdeh, Minority Counsel
     Jeffrey D. Rothblum, Minority Senior Professional Staff Member
         Yelena L. Tsilker, Minority Professional Staff Member
                     Laura W. Kilbride, Chief Clerk
                     Thomas J. Spino, Hearing Clerk

                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Peters...............................................     4
    Senator Paul.................................................    15
    Senator Scott................................................    18
    Senator Hassan...............................................    20
    Senator Hawley...............................................    23
    Senator Lankford.............................................    26
    Senator Carper...............................................    30
Prepared statements:
    Senator Johnson..............................................    41
    Senator Peters...............................................    44

                               WITNESSES
                      Wednesday, December 18, 2019

Hon. Michael E. Horowitz, Inspector General, U.S. Department of 
  Justice
    Testimony....................................................     5
    Prepared statement...........................................    46

                                APPENDIX

Abbreviated Timeline.............................................    75
Letter to CIGIE..................................................    87
FISA Court Order.................................................    93
Statement submitted for the Record from ACLU.....................    97
Responses to post-hearing questions for the Record:
    Mr. Horowitz.................................................   102


         DOJ OIG FISA REPORT: METHODOLOGY, SCOPE, AND FINDINGS

                              ----------                              


                      WEDNESDAY, DECEMBER 18, 2019

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 o'clock a.m., 
in room SD-342, Dirksen Senate Office Building, Hon. Ron 
Johnson, Chairman of the Committee, presiding.
    Present: Senators Johnson, Paul, Lankford, Romney, Scott, 
Hawley, Peters, Carper, Hassan, Sinema, and Rosen.

            OPENING STATEMENT OF CHAIRMAN JOHNSON\1\

    Chairman Johnson. This hearing will come to order.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 41.
---------------------------------------------------------------------------
    I want to thank Inspector General (IG) Horowitz and his 
team for being here. I know in the Judiciary Committee hearing 
you had everybody raise their hands, so if you would raise your 
hands and identify yourselves, all the people who did this 
excellent work, we appreciate that. But I want to thank you for 
all your hard work and efforts preparing the report that is the 
main subject of our hearing today.
    The bipartisan praise you have already received for your 
efforts is well deserved, and I share those sentiments. The 
release of this report is an important step in providing the 
public answers to many of the questions that have festered for 
far too long. But as thorough as this report is, its scope is 
also narrow, and many important questions remain unanswered.
    Much attention has been paid to the report's conclusion 
that the Crossfire Hurricane investigation did have adequate 
predicate, but that inaccuracies and omissions in the Foreign 
Intelligence Surveillance Act (FISA) application and renewals 
call into question the integrity of that process. Yesterday's 
order by the presiding judge of the Foreign Intelligence 
Surveillance Court (FISC) is a dramatic rebuke and underscores 
how serious the FISA warrant abuses are. I would argue that, 
based on what the report reveals about early knowledge within 
the Federal Bureau of Investigation (FBI), we should be asking 
a more fundamental question: At what point should the 
investigation into possible collusion between Russia and the 
Trump campaign have been shut down?
    Although the IG concluded the investigation was properly 
initiated, the consensual monitoring of Trump campaign 
officials conducted in the first 6 weeks did not result in 
``the collection of any inculpatory information.'' But rather 
than shut it down or use the ``least intrusive'' methods, the 
FBI ramped it up. Confidential human sources became FISA 
wiretaps, top FBI officials 
argued--by the way, disagreeing with the Central Intelligence 
Agency (CIA) on this--for inclusion of the unverified and 
salacious Steele dossier into the body of the Obama 
Administration's Intelligence Community (IC) Assessment, and, 
finally, the FBI investigation ballooned into a Special Counsel 
investigation. As a result, the Trump administration was 
tormented for over 2 years by an aggressive investigation and 
media speculation--all based on a false narrative--and our 
Nation has become even more divided.
    For anyone willing to take the time to read the report, the 
report is a devastating account of investigative and 
prosecutorial negligence, misconduct, and abuse of the FISA 
Court process by FBI and Department of Justice (DOJ) officials. 
The most disturbing revelations of the IG investigation include 
reports of doctoring and using an email to mislead the FISA 
Court, ignoring the fact that exculpatory evidence was obtained 
during surreptitious recordings of investigation targets, 
deciding not to provide a defensive briefing to the Trump 
campaign, planting an FBI investigator in an intelligence 
briefing for Candidate Trump under false pretenses, and 
withholding known and significant credibility problems related 
to the Steele dossier.
    With these abuses in mind, and in light of what became 
known early in the investigation, I strongly believe that 
Crossfire Hurricane should have been shut down within the first 
few months of 2017. Had the public known what the FBI knew at 
that time, it is hard to imagine public support for continuing 
the investigation, much less the appointment of a Special 
Counsel 4 months later. Investigations into Russian hacking, 
Paul Manafort, and Michael Cohen should have continued using 
normal FBI and Department of Justice procedures. But with a 
sufficiently informed public and an FBI and Department of 
Justice that rigorously followed their own procedures, this 
national political nightmare could have been avoided.
    Which raises the question: Why wasn't the public properly 
informed? Some of the reasons are now obvious; some are 
speculative. What is obvious is that certain FBI and Department 
of Justice officials were not truthful or ``scrupulously 
accurate'' in their filings. Also, as this Committee's majority 
staff report on leaks in the first 4 months of the Trump 
administration shows, an unprecedented number of leaks--125 in 
the first 126 days of the administration--helped fuel the false 
narrative of Trump campaign collusion with Russia. The media 
was either duped by, or complicit in, using those leaks to 
perpetuate this false narrative.
    The role of other Obama Administration officials and 
members of the intelligence community is murky and unknown, but 
legitimate suspicions and questions remain and must be 
answered. For example, who initiated the contacts between 
Joseph Mifsud, Alexander Downer, Stefan Halper, and Azra Turk 
with George Papadopolous? Was the January 6th intelligence 
briefing given to President-elect Trump by James Comey, John 
Brennan, and James Clapper orchestrated to provide a 
justification for the news publication of the Steele dossier? 
The fact that the involvement of others outside the FBI and 
Justice Department remains murky and unknown after an 18-month-
long Inspector General investigation is not criticism of his 
work but speaks to the statutory limitations of Inspectors 
General that should be evaluated and reassessed for reform.
    Another question that needs to be asked is: Who will be 
held accountable? During his investigation of the FBI's 
handling of the Clinton email scandal, the Inspector General 
uncovered a treasure trove of unvarnished evidence of bias in 
the form of texts between FBI officials Peter Strzok, Lisa 
Page, and others. Were it not for the discovery of those texts, 
would we even be here today reviewing an IG investigation of 
these stunning abuses of prosecutorial power? I have my doubts. 
The officials involved in this scandal had plenty of time to 
rehearse their carefully crafted answers to the IG's questions 
or to use time as an excuse for their lack of recall. For 
example, on significant issues described in the report, Andrew 
McCabe told IG investigators 26 times that he did not recall.
    Some of those involved are even claiming vindication as a 
result of the IG report. I appreciate Mr. Horowitz's testimony 
last week in which he stated about this report, ``It does not 
vindicate anybody at the FBI who touched this, including the 
leadership.''
    Finally, I would argue that the process for investigating 
and adjudicating alleged crimes within the political realm is 
completely backward. Congressional oversight and, therefore, 
public awareness end up being the last step in the process 
instead of the first. Once a criminal or Special Counsel 
investigation begins, those investigations become the primary 
excuse for withholding information and documents from 
congressional oversight and public disclosure.
    In order to avoid a repeat of unnecessary Special Counsels 
or improper investigations of political scandals, I would 
suggest that Congress should increase its demands for obtaining 
documentary evidence--concurrently with criminal 
investigations, if necessary--and hold hearings early in the 
process. This would result in more timely transparency while 
preserving an adversarial process to provide political balance 
and fairness. If possible criminal acts are found during 
congressional oversight, they can be referred to the Justice 
Department for further investigation. If conflicts of interest 
exist that prevent a fair adjudication by the Justice 
Department, then a Special Counsel can be appointed, but only 
as a last resort, not a first.
    I am sure we will spend most of today's hearing discussing 
the Crossfire Hurricane investigation and the Inspector 
General's report on it. I do hope we can spend some time 
discussing some of the other issues I have just raised. 
Regardless, this Committee's oversight on the events involved 
with and surrounding the FBI Midyear Exam and Crossfire 
Hurricane investigations will continue until I am satisfied 
that all the important and relevant questions are being 
answered. Senator Peters.

             OPENING STATEMENT OF SENATOR PETERS\1\

    Senator Peters. Thank you, Mr. Chairman. Mr. Horowitz, 
thank you for being here today and for your testimony.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Peters appear in the Appendix 
on page 44.
---------------------------------------------------------------------------
    Inspectors General play a vital role in conducting 
oversight, offering independent assessments of how programs are 
working and holding agencies accountable when errors are made.
    The Justice Department Inspector General's Office conducted 
a thorough, 19-month investigation, interviewing more than 100 
witnesses, and analyzed more than 1 million pages of materials 
to complete the report that we are going to be discussing here 
today.
    This report found unequivocally that the FBI investigation 
into coordination between individuals affiliated with President 
Trump's campaign and the Russian government had a proper legal 
and factual basis and found no evidence that the investigation 
was affected by political bias.
    Politically motivated investigations are a betrayal of our 
bedrock democratic principles, and this institution should 
speak with one voice to say that we will not tolerate them, no 
matter who is in power.
    In this case, the report found that the investigation was 
rooted in identifying any Federal criminal activity or threats 
to American national security. The Inspector General verified 
that politics played no role whatsoever in opening this 
investigation.
    Importantly, the report did find that there are areas that 
do need improvement, including the process used to obtain FISA 
warrants.
    Identifying these areas for improvement is a key part of an 
Inspector General's role, and I applaud the Inspector General's 
robust and thorough work to shine light on the FBI as well as 
the Justice Department's shortcomings.
    It is this independence and commitment to the rule of law 
that sets our institutions apart.
    FBI Director Wray has received this report and agreed with 
its core conclusion that political bias played no role in 
opening the investigation.
    Director Wray also accepted the Inspector General's 
findings that errors occurred in the FISA process and ordered 
more than 40 corrective actions to improve and reform this 
important process.
    I hope that today's hearing provides this Committee with 
the opportunity to carefully examine this report's 
recommendations and determine whether there are areas that we 
can help strengthen as well.
    However, the most important fact that we should take away 
from this report and this hearing is that Russia, a foreign 
adversary, engaged in a sweeping and systematic effort to 
interfere in the 2016 Presidential election and that the FBI 
was right in investigating those who may have been involved.
    The Russian government's effort was an attack on our 
democracy and on our national security, and it is happening 
again.
    The Russian government is intent on sowing distrust, 
spreading misinformation, and undermining democracy, and they 
will pursue these efforts at all costs.
    Members of both parties must come together to pass 
legislation strengthening election security and ensure that no 
foreign adversary can meddle in our elections again.
    I had the opportunity to work with Chairman Johnson and 
Senator Lankford on bipartisan legislation to strengthen 
cybersecurity standards for our voting machines. And I hope 
that we can continue working together to identify these kinds 
of commonsense steps that will protect the very heart of our 
democracy.
    Finally, Inspector General Horowitz, I would like to thank 
you and your team for your independence, your integrity, and 
your hard work in completing this report. And I look forward to 
your testimony.
    Chairman Johnson. Thank you, Senator Peters.
    It is the tradition of this Committee to swear in 
witnesses, so if you would please stand and raise your right 
hand. Do you swear that the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you God?
    Mr. Horowitz. I do.
    Chairman Johnson. Please be seated.
    Mr. Michael Horowitz has served as the Inspector General of 
the Department of Justice since April 16, 2012. He also chairs 
the Council of Inspectors General on Integrity and Efficiency 
(CIGIE).
    Prior to joining the Inspector General's Office, Mr. 
Horowitz worked in private practice and before then as a 
Federal prosecutor in the Department of Justice. Mr. Horowitz.

 TESTIMONY OF THE HONORABLE MICHAEL E. HOROWITZ,\1\ INSPECTOR 
              GENERAL, U.S. DEPARTMENT OF JUSTICE

    Mr. Horowitz. Thank you, Mr. Chairman, Ranking Member 
Peters, members of the Committee. Thank you for inviting me to 
testify today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Horowitz appears in the Appendix 
on page 46.
---------------------------------------------------------------------------
    The report that my office released last week is the product 
of a comprehensive review that examined over 1 million 
documents and conducted over 170 interviews involving more than 
100 witnesses, all of which is documented in our 417-page 
report. It also includes a 19-page executive summary, which, if 
folks do not have the time to read 400-plus pages, I would 
certainly encourage people to read the 19-page executive 
summary.
    I want to commend also the tireless efforts of the team 
that did this. They worked rigorously through long hours to 
complete this review.
    The investigation that is the subject of our report, the 
Crossfire Hurricane investigation, was opened in July 2016, 
days after the FBI received reporting from a friendly foreign 
government (FFG) stating that in May 2016 Trump campaign 
foreign policy advisor George Stephanopoulos ``suggested the 
Trump team had received some kind of a suggestion'' from Russia 
that it could assist in the election process with the anonymous 
release of information that would be damaging to Candidate 
Clinton and then-President Obama.
    We determined that the decision to open Crossfire Hurricane 
was made by the FBI's then Counterintelligence Division 
Assistant Director, Bill Priestap, and that this decision 
reflected a consensus reached after multiple days of 
discussions and meetings among senior FBI officials. We 
reviewed Department and FBI policies and concluded that 
Assistant Director Priestap's exercise of discretion in opening 
the investigation was in compliance with those policies. We 
also reviewed his emails, texts, and other documents, and we 
did not find documentary or testimonial evidence that political 
bias or improper motivation influenced his decision.
    While the information in the FBI's possession at the time 
was limited, in light of the low threshold established by 
Department and FBI predication policy, we found that Crossfire 
Hurricane was opened for an authorized purpose and with 
sufficient factual predication.
    This decision to open Crossfire Hurricane was under 
Department and FBI policy a discretionary judgment left to the 
FBI. There was no requirement that Department officials be 
consulted or even notified prior to the FBI making that 
decision. Consistent with this policy, the FBI advised the 
Department's National Security Division (NSD) of the 
investigation days after it had been initiated.
    As we detail in our report, advance Department notice and 
approval is required in other circumstances where investigative 
activity could substantially impact certain civil liberties, 
allowing Department officials to consider the potentially 
constitutional and prudential implications in advance of these 
activities. We concluded that similar advance notice should be 
required in circumstances such as those present here.
    Shortly after the FBI opened the Crossfire Hurricane 
investigation, the FBI monitored meetings and recorded several 
conversations between FBI confidential human sources (CHSs), 
and individuals affiliated with the Trump campaign, including a 
high-level campaign official who was not a subject of the 
investigation. We found that the CHS operations received the 
necessary approvals under FBI policy, that an Assistant 
Director knew about and approved of each operation, even in 
circumstances where a first-level FBI supervisor could have 
approved it, and that the operations were permitted under 
Department and FBI policy because their use was not for the 
sole purpose of monitoring activities protected by the First 
Amendment or the lawful exercise of other rights secured by the 
Constitution or laws of the United States. We did not find 
documentary or testimonial evidence that political bias or 
improper motivation influenced the decision to conduct these 
operations. Additionally, we found no evidence that the FBI 
attempted to place CHSs within the Trump campaign or report on 
the Trump campaign or to recruit members of the Trump campaign 
to become FBI CHSs.
    However, we are concerned that, under applicable FBI and 
Department policy, it would have been sufficient for a first-
level FBI supervisor to authorize the sensitive domestic CHS 
operations undertaken in Crossfire Hurricane, and that there is 
no Department or FBI policy requiring the FBI to notify 
Department officials of a decision to task CHSs to record 
conversations with members of a political Presidential 
campaign. We concluded that current Department and FBI policies 
are not sufficient to ensure appropriate oversight and 
accountability of such operations.
    One investigative tool for which Department and FBI policy 
expressly requires advance approval by a senior Department 
official is the seeking of a court order under FISA. When the 
Crossfire Hurricane team first proposed seeking a FISA order 
targeting Carter Page in mid-August 2016, FBI attorneys 
assisting the investigation considered it a ``close call,'' and 
a FISA order was not sought at that time. However, in September 
2016, immediately after the Crossfire Hurricane team received 
reporting from Christopher Steele containing allegations 
regarding Page's alleged activities with certain Russian 
officials, FBI attorneys advised the Department that it was 
ready to move forward with a request to obtain FISA authority 
to surveil Page. We concluded that the Steele reporting played 
a central and essential role in the decision to seek a FISA 
order.
    As we describe in our report, the FISA statute and 
Department and FBI policies and procedures have established 
important safeguards to protect the FISA application process 
from irregularities and abuse. Among the most important are the 
requirements that every FISA application contain a ``full and 
accurate'' presentation of the facts, and that all factual 
statements are ``scrupulously accurate.''
    We found that investigators failed to meet their basic 
obligation that the FISA applications be ``scrupulously 
accurate.'' We identified significant inaccuracies and 
omissions in each of the four applications: 7 in the first FISA 
application and a total of 17 by the final renewal application.
    As a result of these significant inaccuracies and 
omissions, the FISA applications made it appear as though the 
evidence supporting probable cause was stronger than it 
actually was. We also found basic, fundamental, and serious 
errors during the completion of the FBI's factual accuracy 
reviews, known as the Woods Procedures, which are designed to 
ensure that FISA applications contain a full and accurate 
presentation of the facts.
    Department lawyers and the Court should have been given 
complete and accurate information so they could have 
meaningfully evaluated probable cause before authorizing the 
surveillance of a U.S. person associated with a Presidential 
campaign. That did not occur, and as a result, the surveillance 
of Carter Page continued even as the FBI gathered evidence and 
information that weakened the assessment of probable cause and 
made the FISA applications less accurate.
    We concluded that as the investigation progressed and as 
more information was gathered to undermine the assertions in 
the FISA applications, investigators did not reassess the 
information supporting probable cause. Further, the agents and 
supervisory agents did not follow, or even appear to know, 
certain basic requirements in the Woods Procedures. Although we 
did not find documentary or testimonial evidence of intentional 
misconduct, we also did not receive satisfactory explanations 
for the errors or the missing information and the failures that 
occurred.
    We are deeply concerned that so many basic and fundamental 
errors were made by three separate, hand-picked investigative 
teams; on one of the most sensitive FBI investigations; after 
the matter had been briefed to the highest levels within the 
FBI; even though the information sought through the FISA 
authority related so closely to an ongoing Presidential 
campaign; and even though those involved with the investigation 
knew that their actions were likely to be subjected to close 
scrutiny. This circumstance reflects a failure not just by 
those who prepared the FISA applications, but also by the 
managers and supervisors in the Crossfire Hurricane chain of 
command, including senior FBI senior officials who were briefed 
as the investigation progressed. Oversight by these officials 
required greater familiarity with the facts than we saw in this 
review where time and again during the Office of Inspector 
General (OIG) interviews FBI managers, supervisors, and senior 
officials displayed a lack of understanding or awareness of 
important information concerning many of the problems we 
identified.
    That is why we recommended that the FBI review the 
performances of and hold accountable all individuals, including 
managers, supervisors, and senior officials, who had 
responsibility for the preparation or approval of the FISA 
applications as well as the handling of the Woods Procedures. 
Additionally, in light of the significant concerns we 
identified, the OIG initiated an audit last week that will 
further review and examine the FBI's compliance with its Woods 
Procedures in FISA applications that target U.S. persons in 
both counterintelligence and counterterrorism investigations.
    The OIG report made a number of other recommendations that 
we believe will help the FBI more appropriately use this highly 
intrusive surveillance authority and that will also strive to 
safeguard the civil liberty and privacy of impacted U.S. 
persons. We will continue as an OIG our rigorous independent 
oversight as these processes move forward in the months and 
years ahead.
    That concludes my prepared remarks, and I look forward to 
answering the Committee's questions.
    Chairman Johnson. Thank you, Inspector General Horowitz.
    These Greek names are hard. I just want to give you the 
opportunity. You made the same mistake I did. I started saying 
``George Stephanopoulos,'' but you really meant George 
Papadopoulos. Correct?
    Mr. Horowitz. Papadopoulos, correct. And my apologies to 
George Stephanopoulos if that is what I said. [Laughter.]
    Chairman Johnson. Mine as well.
    Before we start the clock on me, I did want to provide some 
clarity. I was going to do this in my opening statement, but I 
think it is best to have just a quick little exchange here. In 
a number of places, not only this Inspector General's report 
but also in the Midyear Exam, you have a similar statement, and 
I am going to quote: ``We did not find documentary or 
testimonial evidence that political bias or improper motivation 
influenced the decisions'' fill in the blank. You have used it 
in a number of cases now. I know we talked earlier about you 
are pretty confident there was no political bias in the opening 
of the investigation with Bill Priestap.
    Mr. Horowitz. We did not find evidence, and as to him, we 
knew who made the decision. We could focus specifically on him.
    Chairman Johnson. But in both these investigations, you 
found political bias?
    Mr. Horowitz. We found through the text messages evidence 
of people's political bias, correct.
    Chairman Johnson. Also political motivation, for example, 
Bruce Ohr talked about how Christopher Steele was desperate to 
make sure that President Trump did not become President.
    Mr. Horowitz. As to Mr. Steele, that was, of course, a very 
important part of this discussion, is when they understood his 
motivations and his potential bias, and we have the November 
statement from Mr. Ohr that he had been told by Mr. Steele that 
he was desperate to prevent----
    Chairman Johnson. So, again, you are not denying there is 
certainly evidence of bias; there is certainly evidence of 
political motivation. But what you are saying--and this is what 
I want to clarify because I think this has been misconstrued 
and misused, depending on where you put it. You are not saying 
that that bias did not potentially influence that. You are just 
saying you had no evidence that it did. Is that an accurate 
statement?
    Mr. Horowitz. We have no evidence that it did. We laid out 
here what we did to find bias or evidence of bias. We put this 
report out here so the public can read it, look at the facts 
themselves. But we did not find exactly what we said, 
documentary or testimonial evidence of bias. Nothing more, 
nothing less.
    Chairman Johnson. But you are not saying you did not, that 
it did not. You did not find evidence that it did, but you also 
did not find evidence that it did--you are not saying that this 
bias or motivation did not influence. You are not making that 
declarative conclusion. Correct?
    Mr. Horowitz. Again, I want to carve out the opening and 
the predication.
    Chairman Johnson. Priestap versus the others.
    Mr. Horowitz. Because that decision was made by one person, 
we knew who made the decision, understanding that there were 
questions raised by people above and below him. As to the other 
decisions, for example, the FISA decisions and the errors and 
the problems, we do not reach a motivation conclusion precisely 
because of the concerns we have on that. So I think it is 
important for readers to read the report themselves. We talked 
about this before the hearing. Our job as Inspectors General is 
to do what I know all of you expect us to do: transparency, get 
the facts out there. And that is what we have tried to do here.
    Chairman Johnson. So you are leaving it up to the reader, 
to the American public, to judge whether the bias and the 
motivation that you have uncovered, to what extent did that 
potentially influence decisions throughout this process.
    Mr. Horowitz. We are drawing the only conclusions we felt 
comfortable drawing here, and the public can read, and an 
informed public is very important for all of these purposes.
    Chairman Johnson. Just one final follow-up. What kind of 
evidence would you require, literally an oral confession or a 
text saying, ``I so hate this guy that I am going to choose 
this path versus the other''?
    Mr. Horowitz. So it was very hard to look at all this 
evidence and obviously, as we all know, get in people's minds. 
What was the motivation for decisions to be made? What we 
looked at was: Who touched the decision? Did we find evidence 
through text messages, emails, witness interviews? We sometimes 
do get--not in this case, but we do sometimes get 
whistleblowers and other people coming to us and saying, ``I 
think so-and-so made a decision for an improper purpose,'' and 
we as IGs look at that.
    We were looking for that kind of evidence. As you noted, as 
to some people we had concerns about that. Our last report lays 
out not just as to, for example, Mr. Strzok or Ms. Page, but as 
to others, concerns about certain text messages. What we were 
trying to figure out is: What was the evidence? Who was 
involved in decisions? And was there evidence linking those 
biased texts or other evidence connected to decisions? Could we 
bring them together? That was what we were trying to do.
    Chairman Johnson. I know in your report you say the text 
messages were not only indicative of a biased State of mind--
these are the Strzok-Page texts--even more seriously imply a 
willingness to take official action to impact Trump's electoral 
prospects. So that is a statement you also make.
    Mr. Horowitz. Right.
    Senator Carper. Mr. Chairman, would you yield to me for 
just a moment?
    Chairman Johnson. Sure. Stop the clock.
    Senator Carper. Is it fair to say that there are FBI agents 
who were pro-Trump and anti-Trump, including some fairly senior 
people that were pro-Trump and made it very clear that they 
were?
    Mr. Horowitz. We found in both reports evidence of 
political views disassociated from action, and I think that is 
very important, and I tried to emphasize this last year as well 
as last week. We are not concluding that someone is biased 
simply because they supported one candidate or another. 
Frankly, they should not be using their devices for any 
purposes that are political. It raises Hatch Act, potentially, 
and other issues that are not bias, but other legal issues. But 
what we are looking at are were the comments so significant 
that it concerned us that they might have caused them to 
influence decisions they made, and that is, particularly in 
last year's report, where we had far more evidence of text 
messaging. We had some people who had expressed political views 
but did not act on them.
    Again, here we have some members that we have in here that 
reference their political views, but no information and they 
are not the kind of written texts that suggest a potential 
State of mind that would cause us concern.
    Senator Carper. All right. Thank you.
    Chairman Johnson. I think we have that covered.
    So my first question--and I am not asking you to speculate, 
but based on your knowledge of FBI policies regarding 
investigation closures and also based on what you found out 
that the FBI knew pretty early in the process that consensual 
monitoring and what they found out once they finally 
interviewed the primary sub-source, would it have been 
consistent with FBI and Department of Justice guidelines to 
close Crossfire Hurricane shortly after the FBI first 
interviewed Steele's primary sub-source in January 2017? And 
would that have been a reasonable discretionary decision?
    Mr. Horowitz. Certainly one of our criticisms that we have 
laid out here is that as the team was gathering this evidence 
as to the Carter Page FISA in particular, they were not 
reassessing it, including primarily, as I am sure we will talk 
about, the information from the primary sub-source that was 
inconsistent with the Steele reporting. We even have in here in 
the report a reference on page 212 where we have agents talking 
with one another about why is Page even a subject anymore. To 
your question of why are they still looking at him, they were 
actually asking that question not just as to the FISA but the 
foundational question of Carter Page, we are not finding 
anything as to him, why are we not reassessing.
    Chairman Johnson. So, again, it would have been within 
their guidelines. If they had done that and you were doing an 
investigation, you would go that is a reasonable discretionary 
decision to close this thing down.
    Mr. Horowitz. Certainly as someone who has done these cases 
in Assistant United States Attorney (AUSA) and working with 
agents, if you are getting information that is not advancing 
and, in fact, potentially undercutting or significantly 
undercutting your primary theme or theory, as was happening 
here with the Carter Page file, so you would look at the Carter 
Page file and say, ``Should I keep going on this Carter Page-
related matter?''
    Chairman Johnson. I believe this is going to be outside--
and I think I know what your answer is going to be, but I want 
to ask the question. In the course of your investigation, did 
you ever find out how George Papadopoulos was put in touch with 
Mifsud, Downer, Halper, or Turk?
    Mr. Horowitz. That was not something within the scope of 
our review. If we would have seen something in FBI records 
about that, we would have assessed it. But we were focused, as 
I said in my opening----
    Chairman Johnson. And so you saw nothing in the records 
that would answer those questions?
    Mr. Horowitz. We did not find anything that would connect 
all of that from the FBI side of the information.
    Chairman Johnson. According to James Comey's May 28, 2019, 
op-ed in the Washington Post, Joseph Mifsud, unnamed at the 
time, was a ``Russian agent.'' Again, did you find anything in 
the FBI documents that would support James Comey's conclusion 
about that?
    Mr. Horowitz. I want to be careful on that because I think 
if I answer either way, I might be touching on information I am 
not sure I can speak to in this setting.
    Chairman Johnson. OK.
    Mr. Horowitz. But let me be clear. We certainly would have 
looked to see if what the FBI----
    Chairman Johnson. We will follow up in a different setting.
    Did you ever determine why on April 1, 2016, FBI 
headquarters directed FBI's New York field office to open a 
counterintelligence investigation on Carter Page? Did you ever 
get to the bottom of why that happened?
    Mr. Horowitz. I am sorry. Could you----
    Chairman Johnson. Again, on April 1, 2016, FBI headquarters 
directed the field office in New York to open up a 
counterintelligence investigation on Carter Page. Did you ever 
figure out what caused that?
    Mr. Horowitz. The primary purpose of this was not to look 
at that investigation. We did get some testimony we describe 
here about that investigation and what prompted them to open 
it. It grew out of a Southern District of New York case. But we 
did not go beyond that and dig into the files.
    Chairman Johnson. So you never found out why FBI 
headquarters directed that it should not be a sensitive 
investigative matter?
    Mr. Horowitz. Again, we did not go into the specifics of 
how they precisely decided to open it other than interviewing 
some of the witnesses to understand a little bit for background 
purposes.
    Chairman Johnson. Neither of Peter Strzok's immediate 
bosses, Bill Priestap or Assistant Director Steinbach, wanted 
him to run the investigation, mainly because of the 
relationship with Lisa Page as well as kind of a tendency to go 
around particularly Steinbach and go right to McCabe. But 
Andrew McCabe overruled that decision. Did you ever find out 
why?
    Mr. Horowitz. So we talk about that in the report, page 64 
and 65, about that very issue, and Mr. Priestap recalls it as 
you describe. Mr. McCabe--we have his explanation in there--did 
not precisely recall certain of the events, recalled some other 
events, and, again, we laid out there what he was involved in 
in terms of selecting or, as Mr. Priestap described it, having 
Mr. Strzok stay on the investigation.
    Chairman Johnson. On August 25, Deputy Director McCabe 
directed Crossfire Hurricane to contact the New York field 
office for helpful information. It turned out that that helpful 
information was the Steele reporting. Now, this is 25 days 
before the FBI actually received the first six Steele reports. 
Did you ever get to the bottom of how Andrew McCabe was so far 
ahead of the rest of the FBI on that?
    Mr. Horowitz. Again, we asked witnesses about that, 
including Mr. McCabe, and we ultimately were unable to get to 
the bottom of exactly what caused that delay or what prompted 
that call.
    Chairman Johnson. Now, McCabe told people he did not 
remember doing this. But, in fact, McCabe told your team he did 
not remember details about 26 significant events in your 
report. Did you find his memory lapses credible? He seemed to 
be pretty involved in this investigation, I mean overruling to 
make sure Peter Strzok would be named the director, contacting 
the New York field office. He seemed to be pretty involved, and 
yet on some pretty significant issues in your report, he just 
does not recall. Do you find those memory lapses credible?
    Mr. Horowitz. We did find he was briefed on the 
investigation, and as you noted, there were several points at 
the beginning where he was involved. We do not make a 
determination or credibility finding on that issue.
    Chairman Johnson. OK. Senator Peters.
    Senator Peters. Thank you, Mr. Chairman.
    I just want to clarify, after some of that line of 
questioning, just so we are clear for the record, and you can 
answer these first couple of questions with yes or no if that 
works for you, Mr. Horowitz. Did you find any documentary or 
testimonial evidence that the decision to open the 
investigation was political?
    Mr. Horowitz. We did not.
    Senator Peters. Did you find any documentary or testimonial 
evidence that the decision to open the investigation was 
motivated by bias against President Trump?
    Mr. Horowitz. We did not.
    Senator Peters. Your report states that in mid-2016 the FBI 
was investigating attempts by Russia to hack into political 
campaigns, parties, and election interference. Is that correct?
    Mr. Horowitz. Right. We put that in there for background 
purposes. Correct.
    Senator Peters. Your report also states that the FBI 
received information from a friendly foreign government that 
Russia offered to assist the Trump campaign. Is that correct?
    Mr. Horowitz. Correct. We lay out the precise words that 
Mr. Papadopoulos reportedly stated to the friendly foreign 
government.
    Senator Peters. Now, your report does outline a number of 
problems with the FISA process, as you have elaborated on, 
particularly when it relates to questions from the Chairman 
regarding Carter Page. My question is: Did the FISA errors 
affect the investigation's other three subjects in your 
analysis?
    Mr. Horowitz. We did not see information from the Carter 
Page events in the FISAs affecting the others. In fact, part of 
the concerns that we outline here is the lack of developing of 
information as to Mr. Page. So it was not developing, advancing 
the investigation precisely for the reasons we outline here, 
and by definition, therefore, not being of assistance or 
impacting the others.
    Senator Peters. So it had no impact on the other 
investigations?
    Mr. Horowitz. As to the other three, we did not see any 
connection between this and the others with, I will say, this 
caveat, which is the Papadopoulos information was being used in 
the Page FISAs, and so the extent to which the Page FISAs were 
not advancing information as to Mr. Page, they arguably were 
not advancing information as to Mr. Papadopoulos because that 
was the linchpin fact, initially at least, to go for opening 
all of the cases.
    Senator Peters. OK. So as you have identified a number of 
issues related to how the FBI used the FISA process, certainly 
those are things that need to be addressed, the Director has 
said that he is working to address. So my question is: Do you 
have any idea if, as you are quoted as saying, basic and 
fundamental errors were made in this process, is there any idea 
that this is kind of a systemic problem in the FBI? Or did this 
only occur with this particular investigation? Or do you think 
this is much broader that we have to deal with in a broader 
sense?
    Mr. Horowitz. As you know, as an IG I will speak to what we 
found here, and that is, frankly, why we started the audit, 
because the concern is this is such a high-profile, important 
case. If it happened here, is this indicative of a wider 
problem? And we only will know that when we complete our audit. 
Or is it isolated to this event? Obviously, we need to do the 
work to understand that.
    Senator Peters. You mentioned the audit. Could you describe 
the scope of the audit for us, please?
    Mr. Horowitz. So what we are going to do in the first 
instance, since we do not know what we do not know, and this 
is, to our knowledge, the first ever deep dive anyone has taken 
in a FISA, what we are going to do in the first instance is 
have our auditors do some selections of counterintelligence and 
counterterrorism--this was a counterintelligence FISA. We have 
heard lots of concerns about counterterrorism FISAs about 
targeting and other issues there. We are going to take a 
sampling. We are going to look and compare and see how the 
Woods Procedures played out in those FISAs by comparing the 
Woods binders to the FISAs and seeing if the same basic errors 
are occurring there. If they are, then what we will do is we 
will make further selection to do deeper dives as appropriate. 
But we first want to get a window into these. We have limited 
resources, and we want to make sure we are targeting them in 
the right places.
    Senator Peters. So if I recall from your testimony here 
today, the errors that were occurring, the fundamental errors 
and basic errors related to the FISA process, you did not find 
any evidence that there was political bias there, no 
documentary evidence. The errors occurred and those are 
troublesome, but you did not necessarily link those to any 
political bias. Is that accurate?
    Mr. Horowitz. I want to draw a distinction there. What we 
did not find was, as they were considering in August and 
September whether to seek a FISA, we did not see evidence there 
in those communications. But as to the failures that occurred, 
we did not find any of the explanations particularly 
satisfactory--in fact, unsatisfactory across the board. In the 
absence of satisfactory answers, I cannot tell you as I sit 
here whether it was gross incompetence--and I think with the 
volume of errors you could make an argument that that would be 
a hard sell, that it was just gross incompetence--to 
intentional or somewhere in between and what the motivations 
were. I can think of plenty of motivations that could have 
caused that to occur, but we did not have any hard evidence 
that I can sit here and tell you why did these occur. I can 
tell you they occurred. I can tell you we did not get good 
explanations. But I cannot tell you why.
    Senator Peters. But it is conceivable those bad 
explanations are a result of a systemic problem with the FISA 
process, so it is difficult--I would ask--it would probably be 
extremely difficult to answer that question until you complete 
your further audit to see whether or not this is a systemic 
problem within the FBI that has to be corrected. It was not 
something just with this particular case. Is that accurate? How 
would you look at that?
    Mr. Horowitz. We certainly would not make any conclusion 
about systemic or not. As to the failures here, in the absence 
of the satisfactory answers and given how basic some of these 
were, how fundamental, this was not an error because this was 
too complex, you did not understand that the fact you gathered 
here was inconsistent with the fact you were relying on the 
error in the FISA. These should have been told, and I think you 
see this in the FISA Court opinion yesterday.
    Senator Peters. Right.
    Mr. Horowitz. These should have been told. These were 
basic, fundamental errors. It is hard to figure out what the 
rationale is, which is why we are not sure what the motivation 
was.
    Senator Peters. I just want to clarify. The way you will 
know that is, as you are looking at other cases through your 
audit and you find that these are occurring on a pretty regular 
basis, that may be something that--why we have to correct the 
FBI, the reason they were fundamental is because they are 
making these fundamental errors in a lot of other cases, and we 
need to make some reforms.
    Mr. Horowitz. Right, and it could be--if you look at the 
others and you find similar errors and bad explanations there, 
it may be one answer. Frankly, if you find no other errors 
there, that would be particularly concerning, right, as to this 
one.
    Senator Peters. Right.
    Mr. Horowitz. Why then in this one? So I think we need to 
understand----
    Senator Peters. But that is why we need the audit.
    Mr. Horowitz. Right.
    Senator Peters. Thank you.
    Chairman Johnson. So I want to just quick consult Committee 
members here. The vote has been called. We could continue with 
this. The next questioner is Rand Paul, then Senator Hassan, 
and then Rick Scott. Or we could recess, go vote and come back 
so we do not miss any of the testimony.
    Senator Paul. I would kind of like to get mine done and 
continue on, if we could.
    Chairman Johnson. One vote. So it is very easy for us to 
manage this, but we are going to keep going?
    Senator Peters. Yes.
    Chairman Johnson. OK. So what I would suggest is, Rand, you 
stick around, certainly Rick, and maybe all of you quick 
skedaddle and get back. OK? Then I will go vote. Senator Paul.

               OPENING STATEMENT OF SENATOR PAUL

    Senator Paul. Thank you for coming, and much has been said 
of bias and, in a town that is full of politics and opinions, 
it is kind of hard to be anybody without bias. But I do 
appreciate that you and your team try to avoid having bias in 
your reporting and try to be as objective as possible. I 
appreciate that. I think you and other Inspectors General do a 
great service to our country, trying to figure out and make 
things better and root out where there are problems.
    I would say that when we look at bias, I guess the first 
question would be a short question, just to reiterate and make 
sure it is very clear. You did find evidence of biased 
individuals who were involved with the investigation.
    Mr. Horowitz. That is correct.
    Senator Paul. OK. I think that is very clear. And is it 
difficult to determine what people's motives are, whether 
biased or not biased?
    Mr. Horowitz. It is very difficult.
    Senator Paul. Right. And so just by saying you did not find 
it, it does not mean it did not exist; it does not mean you 
could not have had 15 people very biased who influenced every 
one of their decisions. You just cannot prove it.
    Mr. Horowitz. We could not prove it. We lay out here what 
we can prove.
    Senator Paul. OK. One specific instance I would like to ask 
you about, though. The Office of General Counsel (OGC) attorney 
is the one I think you have referred for criminal evaluation. 
Correct?
    Mr. Horowitz. I will just say we have referred it to the 
Attorney General (AG) and the FBI.
    Senator Paul. OK, and that is the possible criminal 
evaluation. He also had text messages that said ``Viva la 
resistance.'' Did you interpret those to be--or what is your 
opinion? Does that show that he might have had some bias 
against the Trump administration?
    Mr. Horowitz. He was one of the individuals in last year's 
report precisely for those text messages that we referred to 
the FBI precisely for that concern.
    Senator Paul. You interpreted that as evidence of bias, but 
I guess my question would be, if you saw that he was biased, he 
has obviously made errors that you think actually may have been 
intentional. Why in that instance would you not be free to say 
that there is documentary evidence of not only bias but then 
malfeasance?
    Mr. Horowitz. That is precisely why we do not say that as 
to the errors, the failures in the FISA process.
    Senator Paul. Could you then specifically say the opposite, 
that actually in this instance there actually was evidence of 
political bias and evidence of record changing that looks like 
malfeasance?
    Mr. Horowitz. There is evidence of both. I agree with you. 
But I want to make sure there is a fair process----
    Senator Paul. That is fine, and I think the Chairman is 
very correct that the media has misinterpreted what you have 
said and drawn conclusions that I do not think are accurate as 
to what you are saying, and people should read the report, and 
the report is very damning as to the process. Whether there is 
bias or not, there are problems.
    Now, getting to your solutions, you have suggested that--
and I think you are attempting to make valid suggestions as to 
how the process would be better. I would make the argument that 
the process cannot be corrected, and the reason I would say 
this is that the FISA Court system requires this high 
scrupulous nature for the agents, and they are both the 
prosecutors and supposed to be defense at the same time. There 
is not anybody on the other side. And this is not the standard 
of the Constitution, and we have allowed this to happen because 
we are going after foreigners, and we just frankly say, well, 
we are not going to have all the constitutional protections for 
listening to Gaddafi's phone calls or Saddam Hussein. We are 
just not going to have all these protections.
    My point is we are now getting into something that is at 
the root of our democracy or of our republic, and that is 
political debate and discourse and the First Amendment. I do 
not think the tweaks to the FBI will work. I frankly think what 
we have to understand is the FISA Court is for foreigners. It 
is at a lower than constitutional level. And so I guess my 
question to you would be: Do you think it is within the realm 
of the reforms that we should consider whether or not political 
campaigns should be investigated using a secret Court where 
there is no legal representation for the defense?
    Mr. Horowitz. And you raise excellent questions here, and 
one of the things that we are careful not to do when we make 
recommendations is make recommendations to Congress on 
statutory changes. So we try and work with the process, as you 
noted. There will be a lot of debate that goes well beyond what 
we are recommending to try and fix what is existing. There is 
going to be a legislative look. The FISA Court clearly is going 
to look at some of these issues now. And we are prepared to 
come meet with legislators and talk through these issues as you 
all consider things that go beyond the four corners of what 
exists.
    I think one of the issues here--and we reference this. 
Having been a prosecutor where you go ex parte to a court for 
search warrants and wiretaps and the criminal process, but you 
also know that at some point the defense lawyer is going to get 
those if there is a case made, and there is the potential for a 
litigation in an open courtroom before a judge with a defense 
lawyer cross-examining, and that alone, that understanding that 
that could happen, has some effect.
    Senator Paul. I agree, and I think if you do not have that 
in the FISA system, no matter what you do, you tweak the 
system. When you are telling me it requires FBI agents to 
always be scrupulous and never have bias enter into that we are 
trying to prevent bias from entering in. I think it is a 
standard that is too high for individuals to take, and there 
will always be people on both sides of the political spectrum 
who may let their biases enter into that, and the check is to 
have a defense attorney, to have a public trial. And secret 
courts really were not intended to examine crime in America or 
to examine political campaigns. And I think that is the thing 
that needs to come out of this, is that we do not--and while I 
do not fault your recommendations for FBI process to make it 
better, there is a big danger that we take that politically and 
say, oh, that is the end answer to that.
    No, the lesson to me on this is that--and I do believe both 
sides could be equally culpable of this--is that we should not 
subject our political campaigns to secret courts and to secret 
warrants and secret surveillance. And there are all these 
questions still of, were all these encounters that Papadopoulos 
had just accidental? Did the government instigate these 
encounters? And if they did, that is very troublesome to me 
that our own government would be sending informants into 
campaigns to try to have chance encounters with different 
people.
    So I am very worried about it, and I hope other Members of 
the Committee will consider as we look at FISA reform that what 
we have to do is Americans should not be caught up in this. 
American citizens were not the target of this. And even 
American citizens who talk to foreigners--can you imagine in 
campaigns moving forward that if you are appointed to a high-
level foreign policy position, is there a likelihood that you 
may have talked to Russians or Chinese in your career? If you 
have been in a foreign policy career for 40 years, you have 
talked to many Russians. And so to say you are an agent, well, 
he had 16 conversations with different members of the Russian 
government. Is that enough to open like a FISA process into 
that he might be a foreign agent? And it is not the 
Constitution. It is showing that you have evidence that someone 
may be related to a government. It is not evidence of a crime.
    And so I think we ought to really consider as we move 
forward that this is not the appropriate vehicle for 
investigating political campaigns.
    Thank you.
    Mr. Horowitz. And if I could just add on that, Senator, I 
think one of the things also here that we uncovered and learned 
as we did this, for example, you mentioned the confidential 
human source issue separate from the FISA. The absence of rules 
there applies whether this was counterintelligence or criminal. 
There did not need to be notice to the Department even had this 
been a criminal investigation. So I think there are some issues 
here that cover broader than just the FISA issue that you have 
raised and are concerned about.
    Chairman Johnson. Senator Hassan, I am assuming you voted?
    Senator Hassan. I did.
    Chairman Johnson. So we are doing this as the vote is 
going. I actually asked Senator Scott to stay, so if you do not 
mind, I would like to give it to him so he can go vote. OK. 
Senator Scott.

               OPENING STATEMENT OF SENATOR SCOTT

    Senator Scott. Thanks for being here. First, I want to 
thank FBI Director Christopher Wray for reporting more than 40 
changes in how the FBI's seeks secret surveillance warrants 
after you pointed out a series of flaws and the FBI's efforts 
to monitor a foreign campaign adviser. I think it is very 
important that safeguards be put in place to prevent a 
politically motivated rogue agent or agents from being able to 
manipulate any processes to pursue their own agenda.
    We had the Parkland shooting down in Florida. We lost 17 
wonderful individuals there. And after that, the FBI Director 
did the right thing. He held individuals accountable at the 
FBI, and I had the opportunity to go out, as I told you, to 
West Virginia and I saw some of the processes that they worked 
really hard to improve.
    Now, the errors committed by the FBI and abuse of authority 
presented in your report should alarm every American. Federal 
officials motivated by political bias and hatred for our 
President abused the FISA process in order to surveil people 
affiliated with the campaign of President Trump, and that is 
wrong. We are talking about liberal FBI officials abusing their 
power in an attempt to discredit and undermine the legitimacy 
of a candidate and his campaign.
    We should all be greatly concerned about this, and I think 
you brought this up in your report. Where was the oversight? 
Where was the oversight when the FBI did not bother to confirm 
any of the claims in the Steele dossier before presenting them 
to the Court as evidence to surveil Carter Page? Where was the 
oversight while the FBI was making seven key errors or 
omissions in its original FISA application and ten more in the 
three subsequent applications? Again, where was the oversight?
    It was not there. The decision whether to open this 
investigation was a discretionary judgment call left to the 
FBI.
    So, Mr. Horowitz, to your knowledge, has the FBI ever spied 
on any other Presidential campaigns? And if so, which ones?
    Mr. Horowitz. So we did not go and look, Senator, 
historically at what other investigations the FBI conducted of 
various campaigns, so I am not in a position to answer that.
    Senator Scott. Do you know of any investigations that have 
ever happened to see if there were investigations of 
Presidential campaigns or spying?
    Mr. Horowitz. Certainly as I sit here, I am not aware of 
any surveillance that was done or use of confidential human 
sources. But I certainly cannot say it did not happen. I just 
cannot tell you as I sit here that I know of any.
    Senator Scott. OK. I know some people do not like the word 
``spying,'' but I think that is exactly what Comey's FBI did. 
It is very similar to the Obama Administration's Internal 
Revenue Service (IRS) deciding to target conservative 
organizations. I think the business of weaponizing Federal 
bureaucracies for political purposes is dangerous and 
disastrous. I cannot imagine any sane person really wanting to 
go down this road. I do not know anybody I work with that wants 
to do this.
    Can you just go through some of the recommendations you 
think that are the big, most important ones that the FBI has to 
do to make sure this does not happen again?
    Mr. Horowitz. I think first and foremost there needs to be 
a change in practice and policies that involves consultation 
and discussion with the Department lawyers before moving 
forward, whether on opening a case or involving these kind of 
constitutional issues or sending in confidential human sources. 
The level of discussion--I did public corruption cases when I 
was a prosecutor in New York many years ago, and you would want 
to talk through very carefully before moving forward in a case 
like this in all steps, both the opening and the 
investigations.
    On the FISA side, there has to be a fundamental 
understanding that decisions about evidence that is un the 
dercutting, inconsistent with the theory of the case, has to go 
to lawyer, the lawyer who is handling it for the Department, 
and it has to move up the chain in the Justice Department 
because they have to make the judgment calls. They are the 
gatekeepers. They are the ones who are there to understand is 
there enough for this FISA or isn't there, and if there is, we 
have to make sure this application fairly represents to the 
Court all the evidence and all the information. That is what 
did not happen here, and that is, I think, why you see the FISA 
Court order yesterday.
    Senator Scott. Do you think the FBI is going to make the 
changes that they need to?
    Mr. Horowitz. I certainly understand that from Director 
Wray that that is the plan.
    Senator Scott. OK. Do you think he is committed?
    Mr. Horowitz. Yes. Everything I have heard, he has made it 
clear he is committed to it.
    Senator Scott. Given the abuses that were found during this 
investigation, what should the vetting process be for assets 
and criminal informants? What do you think the----
    Mr. Horowitz. There clearly on the FBI side needs to be a 
better process or a more effective process and understanding in 
place on how to vet individuals and how to make sure that 
managers are supervising, and the reason we made the referrals 
for accountability of the supervisors is this is not only a 
failure of the line agents; this is a failure of management 
from the first level all the way up to ensure hard questions 
are being asked. When you are running something like this, you 
have to ask insightful, targeted questions. You have to know 
the answers. And you have to make sure that managers understand 
what their responsibilities are.
    So on the easier end is training. On the harder end is 
making people realize that they cannot be making all these 
discretionary judgments for themselves. Other people need to 
know about them.
    Senator Scott. Mr. Horowitz, to your understanding, was 
Christopher Steele ever polygraphed?
    Mr. Horowitz. I do not believe we saw any evidence of that.
    Senator Scott. Does that surprise you?
    Mr. Horowitz. I would probably want to talk further with my 
team about making sure I understand what the rules are at the 
FBI in terms of doing it, but you could see--presuming it is 
within the rules at the Bureau to do that, it is certainly a 
reasonable question to ask.
    Senator Scott. So when the FBI finds an asset that they 
determine not to be credible, what should they be doing?
    Mr. Horowitz. Well, they should----
    Senator Scott. What would be the process?
    Mr. Horowitz [continuing]. Cut that person off as a 
confidential human source, full stop.
    Senator Scott. Do they have an obligation to go back and 
tell everybody that he was providing information based on a now 
not credible source, that they were wrong?
    Mr. Horowitz. They have an obligation to close the person, 
put it in what is called the ``delta file'' so it is in the 
FBI's system so that every single person who has relied on that 
informant can see that information. It is one of the criticisms 
we have here, that not all information went into the delta 
system as they were learning information about Mr. Steele. And 
as needed, they should be alerting not only the agents who have 
relied on it, but if it is criminal, they should also be 
telling the prosecutors what they have learned.
    Senator Scott. Thank you. Senator Hassan, thank you again 
for letting me go.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Oh, sure. My pleasure.
    Thank you, Inspector General Horowitz, for being here. I am 
grateful to the Chairman and the Ranking Member for having this 
hearing. And, Mr. Horowitz, I also just wanted to thank your 
team for all of their extraordinary hard work because I think 
the role of Inspectors General is incredibly important. So let 
me just start with a couple of general questions about the 
tools that you all have to work with and really the function 
that you perform.
    First of all, I believe you all do a great service to the 
country. Inspectors General not only evaluate Federal programs 
and spending to ensure that taxpayer dollars are well spent, 
but they also confront wrongdoing that threatens to undermine 
our democratic institutions and the specific missions of the 
agencies that they serve.
    Consequently, Congress has to do everything it can to 
support the work of Inspectors General and establish safeguards 
to protect their work against agency interference or political 
influence.
    So, Mr. Horowitz, can you discuss the importance of 
maintaining the independence of the Office of the Inspector 
General as it reviews agency actions and makes recommendations 
for improvements? And, in particular, how does maintaining that 
independence help you do your job?
    Mr. Horowitz. Thank you, Senator. It is foundational to 
what we do.
    Senator Hassan. Right.
    Mr. Horowitz. This report has credibility because the folks 
who worked on it behind me and who have worked on other reports 
go at it in just a down-the-middle-of-the-road way, completely 
independent. We want to put forward information so the public 
can make its assessment of what happened with a government 
program, whether it is FISA, whether it is a taxpayer-funded 
program of another sort. But we are all about transparency, 
putting information out there, and not being swayed by what 
maybe the FBI or the Justice Department leadership want to see 
happen or want to see a particular outcome. We have to be 
completely independent of that, be able to lay out what we 
think.
    The Attorney General disagrees with our finding on 
predication. That is fine. I did not take this job to always 
agree with the leadership of the Justice Department. That is 
not what this job is about. And that has to be built into the 
system, and there has to be respectful disagreements.
    Senator Hassan. Right.
    Mr. Horowitz. But there has to be that ability to have 
disagreements.
    Senator Hassan. Great. Thank you for articulating that so 
well. It is something I think we need to stay focused on.
    Now let us get to a couple of the tools that I would like 
to ask you about. The Inspector General Act gives IGs numerous 
tools to conduct their evaluations, audits, and investigations 
in a thorough and objective way. However, additional tools may 
be required to adequately perform what is really important 
work.
    One of these additional tools is the ability of the IG to 
subpoena witnesses who operate outside of the agency or its 
programs, including former Federal employees.
    How would the ability to compel testimony from these 
witnesses enhance the investigative capabilities of the IG 
community?
    Mr. Horowitz. So it is a critical tool that we have 
advocated for for many years. This Committee has been very 
supportive of us getting it. As an example in this review, we 
had two witnesses who would not speak with us--Mr. Simpson and 
Mr. Winer--and we had no ability to get their testimony.
    Most importantly, also, though, partly the reason this took 
18 or 19 months is because many witnesses initially declined to 
speak to us and only toward the end of the investigation 
reengaged and said now they were interested in speaking with 
us. We were not going to turn down their testimony.
    Senator Hassan. Right.
    Mr. Horowitz. That required us to extend our timing. So 
having subpoenas not only would have led us to get evidence we 
did not get, but it would have led us to move this more rapidly 
to a conclusion.
    Senator Hassan. Right.
    Mr. Horowitz. Very importantly, on programs that cost the 
taxpayers money, grant recipients, contractors of the Federal 
Government, those are people who are not Federal employees who 
do not have an obligation to cooperate. That would be very 
helpful in that regard. Former employees, I could go over and 
over and over with you, and we have sent many examples to the 
Committee, of individuals who engaged in misconduct at the 
Justice Department and retired on the eve of us questioning 
them, and then they do not come in. And valuable evidence is 
lost. Sometimes they are the subject. Sometimes, frankly, they 
are the critical witness.
    Senator Hassan. Right.
    Mr. Horowitz. They retire, they have their pension, they 
move on. And, in fact, actually if they become contractors, 
they can come back and work for the Federal Government, and we 
cannot subpoena them in that position.
    Senator Hassan. OK.
    Mr. Horowitz. So there are a lot of reasons why that is a 
very important provision, and, by the way, the Defense 
Department (DOD) IG has that authority. It has been used very 
sparingly in all the years because when you have the authority, 
people work out voluntary arrangements to come in and talk with 
us.
    Senator Hassan. Right. Of course. Well, thank you for that 
explanation, and that is something I hope we can work on in a 
bipartisan way.
    Another one of the tools that could aid your office in 
particular is the ability to investigate misconduct of 
Department of Justice attorneys. Can you provide us with more 
background on why this particular policy is in place and 
whether in your view it is an appropriate exception to your 
authority?
    Mr. Horowitz. Absolutely, and thank you for asking about 
that. This has been something we have advocated for 30 years 
since we came into existence in 1988. The deal that was struck 
in 1988 that allowed the Justice Department to have an IG with 
the Attorney General at the time was to carve out lawyers and 
actually at the time to carve out the FBI and the Drug 
Enforcement Administration (DEA) from oversight by the 
independent Inspector General. So when we started, we largely 
oversaw the Immigration and Naturalization Service (INS), which 
was at the Department at the time, and a few other entities.
    In 2001, at the time it was within the discretion of the 
Attorney General to change that, Attorney General Ashcroft, 
after the Aldrich Ames scandal, gave us authority over the FBI 
and DEA. Congress legislated that a year later. Lawyers 
continued to be carved out. The discretion to change that is no 
longer with the Attorney General. It is Congress that would 
have to change the law. We are the only Inspector General 
Office that I am aware of that does not have authority over 
misconduct by any employee in the agency they oversee. And so 
if the misconduct is by the line prosecutor in a courtroom 
prosecuting someone criminally to the Attorney General, we do 
not have the authority to look at that. That goes to the Office 
of Professional Responsibility (OPR), which does not have the 
statutorily protected independence and transparency that we 
have.
    Senator Hassan. OK. Thank you. It is my understanding that 
legislation is required to provide the IG community with these 
tools, and I look forward to working with you to explore this 
further in order to find a bipartisan way to strengthen the 
investigative capabilities of the IG community. You really do 
important work, and we are very grateful. Thank you.
    Mr. Horowitz. Thank you, Senator. I would just add on that 
OPR bill, and our ability to oversee prosecutors, the House has 
passed a bill, voice vote, bipartisan, unanimous. Senator Lee 
has a bill pending in the Senate with bipartisan cosponsorship, 
and I know this Committee has cared deeply about it, and I look 
forward to working with you on it.
    Senator Hassan. OK. Thank you, and thank you, Mr. Chair.
    Chairman Johnson. Senator Hawley.

              OPENING STATEMENT OF SENATOR HAWLEY

    Senator Hawley. Thank you, Mr. Chairman.
    Mr. Horowitz, I see that the FBI continues to persist in 
characterizing the problem related to their surveillance issues 
here as ``limited.'' And I see the FBI Director's statement 
yesterday, the FBI's statement yesterday makes it sound as if 
there is a limited problem. So let us just talk a little bit, 
if we could, about the scope of the problem at the FBI and how 
it is that the FBI came to be intervening in a Presidential 
election while the election was ongoing in the fall of 2016.
    First, let me just ask you when it comes to FISA warrants, 
surveillance warrants, are the targets of those warrants given 
an opportunity to defend themselves in court at the time the 
warrant is sought?
    Mr. Horowitz. No.
    Senator Hawley. So the Court relies on who to establish the 
facts?
    Mr. Horowitz. The FBI and the Justice Department.
    Senator Hawley. So there is nobody there to contest the 
facts. The Court only hears from one side. Is that correct?
    Mr. Horowitz. Correct.
    Senator Hawley. Is it normal in your experience, your 
knowledge, for the FBI to use as the principal basis for a 
surveillance warrant political opposition research paid for by 
a major political party?
    Mr. Horowitz. I cannot say that we have looked at any other 
FISA----
    Senator Hawley. Have you heard of that being done before?
    Mr. Horowitz. I have not heard of it, and I can tell you 
there was obviously, as we lay out here, concern at the Justice 
Department among the lawyers involved as to that question.
    Senator Hawley. And, indeed, the FBI, of course, knew very 
well the nature and source of this Steele dossier on October 
11, 2016. After they were asked three times by a DOJ attorney, 
the FBI responded that Steele, and I am quoting now, ``had been 
paid to develop political opposition research.'' This is right 
at the time that the FBI was going to the FISA Court and asking 
for a surveillance warrant in the middle of a Presidential 
campaign. Correct?
    Mr. Horowitz. That is correct.
    Senator Hawley. And so the FBI absolutely knew where this 
was coming from. What about the number of people involved? How 
many people at the FBI were involved in misleading the FISA 
Court by your count, your estimation?
    Mr. Horowitz. We do not have a precise number of exactly 
who knew what when, but there were four different FISAs. There 
is a case agent, there is a supervisory agent who are reviewing 
each. There was some overlap so it is not eight. I think it is 
either six or seven who had both of those responsibilities, 
some of which, to be fair, were more egregious than others in 
terms of the mistakes and the failures that occurred. And then, 
of course, as we note here, the reason we refer people up the 
chain is there is information flow up the chain, and even 
though those individuals did not have direct responsibility 
under the Woods Procedures, as managers and supervisors, we 
believe they had a responsibility to ask probing questions they 
should have been asking and followed up on information they 
were getting to make sure they were in a position to 
effectively supervise.
    Senator Hawley. I want to come back to the information flow 
up the chain in just a second. You say on page 65 of the report 
there were over a dozen agents, analysts, and one staff 
operations specialist in the original Crossfire Hurricane team, 
which would have included at least nine FBI agents and 
supervisors involved in overseeing the Carter Page 
investigation. By my count, just what you have said in the 
report, looking at an organizational chart, we are talking 
probably at least a dozen individuals who were directly 
involved in the Carter Page warrants the four times. Does that 
sound approximately correct to you?
    Mr. Horowitz. In fact, there is the org chart here at the 
end of Chapter 3.
    Senator Hawley. Exactly.
    Mr. Horowitz. There were different organizational charts, 
and people can see and follow this for themselves.
    Senator Hawley. So we have about a dozen people at the FBI 
directly involved. That is a lot of people. The FISA Court 
pointed out yesterday that an electronic surveillance 
application under Federal law must be made by a Federal officer 
in writing upon oath or affirmation, and those individuals 
swear to the facts of the application. Yet we now know that in 
October and then three times--October 2016 and three times in 
2017, these individuals deliberately, knowingly misled the FISA 
Court. I mean, that is really the nicest way to put it. 
Basically they lied to the FISA Court to get a surveillance 
warrant of an American citizen.
    Why would so many people do that?
    Mr. Horowitz. So we lay out here the reasons. As I said, 
there are multiple teams, there are some more senior people, 
more junior people. We obviously try very carefully to lay out 
who knew what when and which people--so I want to be careful 
and not----
    Senator Hawley. Were they just all incompetent? I mean, all 
of these people, they just could not--they did not--I mean, 
they were competent enough to deliberately mislead the FISA 
Court, to change submissions to the FISA Court, to alter 
emails. So it does not sound like they are very stupid to me. 
But, what is the explanation? Why over time, why would all of 
these people, four times over the space of half a year, 
deliberately mislead a Federal Court?
    Mr. Horowitz. We do not make a conclusion as to the intent 
here, so I want to be clear about that. But that was precisely 
the concern we had, is what you lay out. There are so many 
errors. We could not reach a conclusion or make a determination 
on what motivated those failures other than we did not credit 
what we lay out with the explanations we got.
    Senator Hawley. Yes, it certainly was not the reasons that 
they offered to you, is what you----
    Mr. Horowitz. We did not credit that, and, frankly, this is 
one of the reasons we were not able to but did not reach a 
conclusion, is we now have the Court weighing in and the Court 
wanting to understand what happened here as well.
    Senator Hawley. Yes. I think the scope here is what really 
alarms me, the number of people directly involved at the FBI, 
the repeated decisions to mislead, outright lie to the FISA 
Court, and the total implausibility of the explanations that 
these people offered you, I mean, again maybe they are 
incompetent, or maybe they had an agenda here. And I just want 
to put a fine point on that. Was it your conclusion that 
political bias did not affect any part of the Page 
investigation, any part of Crossfire Hurricane? Is that what 
you concluded?
    Mr. Horowitz. We did not reach that conclusion.
    Senator Hawley. Because I could have sworn--in fact, I know 
for a fact that I have heard that today from this Committee, 
but that is not your conclusion?
    Mr. Horowitz. We have been very careful in connection with 
the FISAs for the reasons you mentioned to not reach that 
conclusion, in part, as we have talked about earlier, the 
alteration of the email, the text messages associated with the 
individual who did that, and our inability to explain or 
understand what--to get good explanations so that we could 
understand why this all happened.
    Senator Hawley. I think we are left with really--I mean, it 
is two possibilities here. You have three different 
investigative teams, as you testified earlier. You have a dozen 
people at the FBI. You have the decisions made over time to 
mislead the FISA Court. Either these people were really 
incompetent and bad at their jobs, or they had an agenda that 
they were pursuing. And having an agenda, I do not care what 
word you put in front of it, political agenda, personal agenda, 
but whatever it is, it is antithetical to democracy.
    Let me just ask you about the information flow up the 
chain. We see that Director Comey, we know that Director Comey 
was briefed about Crossfire Hurricane in August 2016. Who else 
knew about this? On October 14, 2016, we know that Deputy 
Director McCabe gets a text message saying that the Deputy 
Attorney General wants to be part of a meeting, and the White 
House has asked the Department of Justice to host. Who at the 
White House knew about the Crossfire Hurricane investigation?
    Mr. Horowitz. So as you know, we are not the Inspector 
General, over the White House or the Executive Office of the 
President, and so what we have access to are the records at the 
FBI and the Justice Department. I cannot answer questions about 
that as to who knew or who was involved beyond people in the 
Justice Department and the FBI.
    Senator Hawley. I will say in closing, Mr. Chairman, I find 
it very hard to believe that the Deputy Attorney General of the 
United States, the FBI Director, all knew about this, but that 
the senior leadership, the Attorney General herself or, for 
that matter, the President of the United States would not know 
about a surveillance program of a major party candidate in the 
midst of a Presidential campaign. That just boggles the mind.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator Hawley. By the way, 
good line of questioning.
    I want to take this opportunity real quick to put a little 
meat on the bones here. You talked about mid-October. October 
11th and 12th, Christopher Steele's meeting at the State 
Department with Kathleen Kavalec and Jonathan Winer, who 
refused to cooperate with this investigation, is also the same 
day, October 11th, that Stu Evans is raising questions about 
Steele, going, ``Where is this coming from?'' Three times asked 
the question. Did not get a satisfactory answer three times.
    Also, I think the next day, October 12th--the 11th and 
12th, Lisa Page is texting Strzok and McCabe saying that there 
are some problems with Stu Evans, and, oh, by the way, in order 
to break down his resistance--my words, not hers--basically she 
might have to use McCabe's name to get Stu Evans to basically 
agree to letting this FISA warrant go through.
    So talking about information up the chain, you have McCabe, 
you have Strzok, you have Page, that little cabal--I know they 
did not call themselves a ``secret society,'' but it sure 
sounds like they had a little bit of a cabal going here, and 
that is being really influenced. You can see it right there in 
those texts. That is why the timeline is so important. Take a 
look at the lineup. These unvarnished truths that the texts 
reveal combined with the timeline of events happening, it is 
pretty revealing. Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Mr. Chairman, I would like to ask 
unanimous consent that we enter into today's record the Foreign 
Intelligence Surveillance Court's order\1\ that they put out 
yesterday.
---------------------------------------------------------------------------
    \1\ The FISA Court Order appears in the Appendix on page 93.
---------------------------------------------------------------------------
    Chairman Johnson. Without objection.
    Senator Lankford. It is pertinent, obviously, to this 
conversation today.
    Mr. Horowitz, thank you. Thanks for your leadership not 
only at CIGIE but also, obviously, what you are doing there at 
DOJ. I appreciate your whole team and the work that you 
continue to do.
    You used the term, when talking about the mistakes that 
were made, saying there were so many mistakes, this was either 
somewhere between ``gross incompetence'' to ``intentional,'' 
but you did not try to be able to determine the motivation of 
all these. It gets a little more harsh when the FISC responds 
back to this in the letter that they sent out in their order 
yesterday. They said, ``Because the conduct of the OGC attorney 
gave rise to serious concerns about the accuracy and 
completeness of the information provided to the FISC in any 
matter in which the OGC attorney was involved, the Court 
ordered the government on December 5, 2019, to, among other 
things, provide certain information addressing those 
concerns.''
    Then this: ``The FBI's handling of the Carter Page 
applications, as portrayed in the OIG report, was antithetical 
to the heightened duty of candor described above. The frequency 
with which representations made by the FBI personnel turned out 
to be unsupported or contradicted by information in their 
possession and with which they withheld information detrimental 
to their case calls into question whether information contained 
in other FBI applications is reliable.''
    One of the reasons this hearing is so incredibly important 
is because what this group did at the FBI not only took our 
Nation down years of turmoil, but they are now calling into 
question every FISA application. I am confident every attorney 
is going to bring this case up and say we cannot rely on the 
FISA process now, and it will cause turmoil in the FISA Court 
for a very long time. So the Crossfire Hurricane team not only 
did damage to our Nation, did damage to our justice system, and 
potentially damage to what we are doing in counterintelligence 
and counterterrorism. So we appreciate your work because this 
is incredibly important to actually get to the bottom of this 
process.
    Can you compare the quality of work as you went through the 
interviews with the Crossfire Hurricane team at headquarters 
with the Washington field office and those agents and the 
quality of their work? Did you see the same number of mistakes 
made in what was done between the Crossfire Hurricane team and 
the Washington field office team?
    Mr. Horowitz. So many of the problems that come up here 
flow from the earliest parts of the investigation, which were 
the headquarters-based team. As you know, the teams got mixed 
as they went along. It went out to the field; then it came back 
at various times, which is a problem we identified here. Most 
of the problems are occurring at the headquarters-based times 
when the teams are together. It is not exclusive because it 
goes to the field as well.
    Senator Lankford. The Washington field office seemed to 
handle documents and procedures better than headquarters 
handled it.
    Mr. Horowitz. I think on balance that is a fair comment, 
although, frankly, we do not go into trying----
    Senator Lankford. Right, you are not trying to compare the 
two. I am asking for an opinion after you have gone through the 
process.
    Mr. Horowitz. And there are so many problems here. We 
decided not to sort of----
    Senator Lankford. Try to separate it out.
    Mr. Horowitz [continuing]. Work out exactly where things 
might have been not as problematic as others.
    Senator Lankford. Let me follow on what the Chairman was 
talking about with Jonathan Winer. The meetings in the State 
Department are very curious to me, that Steele somehow either 
initiates or he says was invited by State Department officials 
on October the 11th to be able to come sit down with officials 
at the State Department. He made very clear he is trying to get 
documents into the public eye before the election and to try to 
get all these things made public. That meeting happens on 
October the 11th.
    On October the 19th, Steele delivers to an FBI handling 
agent what he received from Jonathan Winer, from the State 
Department. So Steele is coming to make his case to the State 
Department. He makes his case. Apparently Jonathan Winer then 
takes a document, gives it to Steele, since he is getting 
things out into the public, and he sends that out. So someone 
from the State Department is trying to get out into the public 
what he described as ``a friend of a well-known Clinton 
supporter who received this from a Turkish businessman with 
strong links to Russia.''
    So, apparently, someone from the State Department is taking 
a foreign document or a foreign source, getting it to Steele, 
who he knows is trying to get it out into the public. Were you 
able to close the loop on what that document is, how that 
happened, where that document came from?
    Mr. Horowitz. We did not, and partly the issue, as you 
know, is the inability to talk to Mr. Winer about where the 
document came from, that meeting, those connections, but also 
our access here and our review here was focused on FBI conduct 
and conduct by FBI personnel.
    Senator Lankford. So just to clarify on this, this is very 
apparent to your team, though, that this is someone in the 
State Department trying to take a foreign source document and 
trying to get it into the public to affect the campaign against 
Mr. Trump.
    Mr. Horowitz. I can only tell you what we gathered here. We 
did not have a chance to question people on it. So I want to be 
careful. We did not reach conclusions. We are just presenting--
--
    Senator Lankford. You are just saying what you saw at this 
point.
    Mr. Horowitz. Right.
    Senator Lankford. Bruce Ohr is very curious in this 
process. The FBI ``cuts off a relationship with Steele'' early 
November and then makes it official November 17, 2016, saying 
we are going to have no more contact with Steele at all. But 
yet the next day the FBI for the first time pulls Steele's 
file, and they are still going through this after they have 
``cut him off,'' and then within days Bruce Ohr is then doing 
back-channel communications with Steele, and they continue to 
maintain back-channel communications with Steele.
    So was Steele cutoff as a source, or was the Crossfire 
Hurricane continuing to use him as a source, just not 
officially?
    Mr. Horowitz. We concluded the latter, that while he was 
cutoff officially in FBI records, the FBI continued to meet 
with him through Bruce Ohr as the conduit on 13 different 
occasions.
    Senator Lankford. Why would Bruce Ohr continue to be able 
to meet with him? And why would he continue to be tasked to do 
that?
    Mr. Horowitz. Well, let me just be clear. He was not tasked 
to do it. As he said, he understood what the FBI was looking 
for from him. But he was able to do it because there were no 
clear rules that prohibited him from doing it, and he intended 
and desired to do it. There was nothing that he----
    Senator Lankford. He maintained that. On page 188 of your 
report, you make this comment: ``that Steele tasked [his 
primary sub-source] after the 2016 elections to find 
corroboration for the election reporting and that the Primary 
Sub-source could find zero.'' He reported that to the FBI he 
could find zero. He reported that to the Washington field 
office when they met with him in May 2017. What I am trying to 
figure out is Steele is tasking his sub-source to go find 
corroboration after the election is even over. This was at 
least a month through this process and cutting off from the 
FBI. Who is tasking Steele to continue to go chase down more 
information?
    Mr. Horowitz. We do not have evidence as to anybody 
specifically tasking Steele to go chase down evidence, but it 
is pretty clear from what we are laying out here that the FBI 
from day one was asking questions about the corroboration for 
the Steele reporting and not getting it. So it would not be 
surprising that Steele was still trying to see if anybody could 
find corroboration so he could demonstrate that there was 
support for his reporting when, in fact, what we had here----
    Senator Lankford. It was zero.
    Mr. Horowitz [continuing]. That was not what was happening.
    Senator Lankford. It was zero, and it was known immediately 
by FBI at that point that there was zero corroboration for 
this. In fact, the State Department personnel, even when they 
met with Steele, noted that he had his facts wrong, even what 
he was presenting at that point, and they knew it all 
immediately.
    Mr. Horowitz. They referenced, I think it was, the 
purported Miami consulate, that there was no such Miami 
consulate.
    Senator Lankford. All right. Thank you.
    Thank you, Mr. Chairman.
    Chairman Johnson. Senator Lankford, just real quick, your 
line of questioning, again, reveals the shortcomings--again, 
not because of Inspector General Horowitz's fault, but just the 
fact that he is constrained in terms of what information he can 
really gather, which is why I am basically reaffirming to you, 
our Committee's investigations have kind of combined, Senator 
Grassley in Finance, Senator Graham in Judiciary, and this 
Committee. We have begun the process of requesting voluntary 
interviews on a host of different issues. This is just one of 
the areas. Again, our investigation started with the Clinton 
email scandal, kind of morphed into this because it is the same 
cast of characters moving into this.
    So as I said in my opening statement, I am not going to 
stop our oversight, our investigation, until I get all the 
answers to all the questions. The ones you and Senator Hawley 
raised are very valid, but, again, the constraints of 
Inspectors General, the way they are pretty well siloed in 
their departments really prevents those questions being 
answered, even though it was an 18-, or 19-month investigation. 
So we will continue our efforts. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks, Mr. Chairman. Mr. Horowitz, very 
good to see you. Thank you for your service to our country. For 
how many years?
    Mr. Horowitz. Seven and a half.
    Senator Carper. It seems longer.
    Mr. Horowitz. It seems longer, but it is 7\1/2\.
    Senator Carper. We are glad you are here. We appreciate the 
work you are doing and the leadership you provide. Some of the 
folks behind you, are they part of your team?
    Mr. Horowitz. Yes.
    Senator Carper. Would you all raise your hands, please? All 
right. Thank you very much.
    I think it was Thomas Jefferson who once said if the people 
know the truth, they will not make a mistake. Think about that. 
If the people know the truth, they will not make a mistake.
    Sergeant Joe Friday on the TV show ``Dragnet'' said it 
differently. My sister and I used to love that show, and he 
would be making a visit to someone to try to get information 
from them, a man or a woman, about a crime or an investigation, 
and he would always knock on the door, they would open the 
door, he would say: ``Just the facts, ma'am,'' or, ``Sir, just 
the facts.'' So that is what we are interested in.
    For a long time there was an older Methodist minister in 
the southern part of Delaware in a town called Seaford. His 
name was Reynolds, Reverend Reynolds. And when I was elected 
Governor in 1992, he was nice enough to come and visit me and 
just give me some advice. And one of the pieces of advice he 
gave me was he said, ``Governor, just remember to keep the main 
thing the main thing.'' And I said, ``Pardon me?'' And he said, 
``The main thing is to keep the main thing the main thing.'' 
And it took me about 2 years to figure out what he was talking 
about, but I am reminded of those words today as we try to 
figure out the truth and to figure out what is indeed the main 
thing as it flows from your investigation and your work.
    In preparing for this hearing--I was speaking of Methodist 
ministers--I was reminded of a verse of Scripture, I think it 
might be in the book of Matthew, that warns those who see the 
speck in their brother's eye but do not consider the beam that 
is in their own eye.
    Over the past few years, the media and some of my 
colleagues have focused extensively on text exchanges between 
FBI officials Lisa Page and Peter Strzok which have been cited 
as proof of political motivation behind the Crossfire Hurricane 
investigation. But, Mr. Horowitz, your report I believe notes 
that other agents exchanged pro-Trump texts and instant 
messages during the course of the investigation.
    For example, one supervisory special agent wrote in 
November 2016--I think it was just after the election--and this 
is a quote from him, that he was ``so elated with the 
election'' and compared election coverage to ``watching a Super 
Bowl comeback.'' He later explained his comments by stating 
that he ``did not want a criminal to be in the White House,'' 
referring, I presume, to Hillary Clinton.
    Mr. Horowitz, this agent was supervising the use of a 
confidential human source in the investigation. Is that 
correct?
    Mr. Horowitz. So the individual was in a field office with 
a confidential human source who provided certain information 
but was not ultimately used by the Crossfire Hurricane 
investigation.
    Senator Carper. All right. And you found other examples of 
pro-Trump exchanges between FBI personnel. Is that true?
    Mr. Horowitz. Yes, generally.
    Senator Carper. Mr. Horowitz, did you or your team find any 
evidence that the agents who exchanged pro-Trump messages were 
influenced by political bias?
    Mr. Horowitz. We did not find evidence of action there. 
And, again, as I mentioned earlier, we were very careful to 
separate out general statements pro or anti a candidate 
compared to text messages that went a step further and 
suggested some intent potentially to act on them or that had 
wording that was concerning. FBI employees, like any other 
employee in the Federal Government, are allowed to have 
personal views on which candidate they support or do not 
support. What they cannot do is act on them. What they have to 
do is check them at the door before they get to work. And that 
is what we were trying to sort through here.
    Senator Carper. I think that is the main thing. All of us 
have our political views. We certainly have them on this 
Committee and in the body where we serve. And the question is: 
To what extent do they impede or promote our ability to get 
things done?
    But I will just ask the question again. I just want to make 
sure I understand. Did your team find any evidence that the 
agents who exchanged pro-Trump messages were influenced by 
political bias?
    Mr. Horowitz. No, we did not.
    Senator Carper. All right. Thank you. And this is 
consistent, I believe, with the standard of behavior one would 
expect from FBI professionals. Is that right?
    Mr. Horowitz. That is correct.
    Senator Carper. And, similarly, did you find any evidence 
that political beliefs affected the work of Mr. Strzok and Ms. 
Page?
    Mr. Horowitz. On this investigation, what we looked for 
very carefully was whether they had the ability to impact the 
decision specifically, and on the issues we looked at--the 
confidential human source decisions, the FISA decisions, and 
the opening--we found that they were not the decisionmaker on 
them, so that we could segregate out their views and their 
activities from those decisions.
    Senator Carper. All right. Thank you.
    Let me just follow up. During your appearance before, I 
think it was, the Senate Judiciary Committee last week, Mr. 
Strzok and Ms. Page were described by some of my colleagues as 
the ``people in charge.'' But a witness your team interviewed 
stated that Mr. Strzok was, in fact, ``not the primary or sole 
decisionmaker on any investigative step in Crossfire 
Hurricane''. Witnesses also stated that Ms. Page ``did not work 
with the team on a regular basis or make any decisions that 
impacted the investigation.''
    Is it fair to describe Mr. Strzok and Ms. Page as the 
``people in charge'' of the Crossfire Hurricane investigation?
    Mr. Horowitz. So Ms. Page was not in the chain of command 
at any point in time. Mr. Strzok was in the chain of command, 
so he did have supervisory authority for a period of time. He 
rotated off the organizational chart in roughly January when 
the second team came into being, and there were a series of 
problems that occurred after that as well. And so I think he is 
in a different position in terms of the chain of command 
certainly than she was.
    Senator Carper. All right. In March 2017, President Trump 
alleged that ``Obama had my wires tapped in Trump Tower just 
before the victory''. Later he retweeted a statement that ``the 
DOJ put a Spy in the Trump campaign.'' Attorney General Barr 
repeated these accusations in April of this year when he 
testified that he thought ``spying did occur'' on the Trump 
campaign.
    I would just ask, Mr. Horowitz, did you find any evidence 
that the FBI engaged in spying on the Trump campaign?
    Mr. Horowitz. So we are very careful to use the words, the 
legal words that are used here, which is ``surveillance.'' 
There was the Carter Page surveillance that we have identified 
here. We did not find evidence of other court-authorized 
surveillance. We found the confidential human source activity 
that we detail here and did not find additional confidential 
human source activity prior to the election.
    Senator Carper. If I could close with this, does the report 
find that the FBI engaged in surveillance at Trump Tower?
    Mr. Horowitz. We did not find evidence of surveillance on 
Trump Tower.
    Senator Carper. And did the report find that any monitoring 
of Trump campaign officials occurred without necessary FBI 
approvals?
    Mr. Horowitz. All of the monitoring activities were 
approved.
    Senator Carper. And is it fair to say that the statements 
by President Trump and Attorney General Barr that I have 
described are incorrect?
    Mr. Horowitz. Again, we do not use the term ``spying.'' We 
are looking at whether there was court-authorized surveillance 
or not.
    Senator Carper. Thank you so much.
    Mr. Horowitz [continuing]. I will stick to what we have 
here.
    Chairman Johnson. I want to go back to October 11th's 
activities. After being asked three times by Department of 
Justice attorney Stu Evans, the FBI finally responds that 
``Steele had been paid to develop political opposition 
research.''
    In your report, you write that Strzok has advised Page 
support from McCabe might be necessary to move the FISA 
application forward. Strzok texts Page: ``Currently fighting 
with Stu for this FISA.'' The following day, Lisa Page texts 
McCabe: ``I communicated you and boss' green light''--I think 
that should be ``your''--``to Stu earlier. If I have not heard 
back from Stu in an hour, I will invoke your name to say you 
want to know where things are.'' Isn't that pretty high-level 
pressure on Stu Evans by Peter Strzok, Lisa Page, and Andrew 
McCabe?
    Mr. Horowitz. There was certainly that effort exactly as 
you describe. What ultimately happens is McCabe speaks with the 
head of the National Security Division about it, so they 
ultimately do not need to do what they are talking about here. 
But that is absolutely what they are talking about.
    Chairman Johnson. I want to go back to pick up a little bit 
what Senator Lankford was talking about with Bruce Ohr. These 
are quotes in your report by senior Department of Justice and 
FBI officials describing Ohr's ongoing interactions with Steele 
and the FBI. These are just basic descriptions of how these 
officials thought about it: ``outside of Ohr's lane''; they 
were ``stunned''; they were ``uncomfortable'' with it; ``out of 
the norm''; ``bad idea''; ``raised red flags''; 
``flabbergasted''; ``FBI should have alerted DOJ''; 
``shocking''; ``inconceivable.'' Again, those are a lot of 
senior Department of Justice and FBI officials.
    What is interesting is how Andrew McCabe responded to Ohr's 
activities. He said it was the ``responsible thing'' to do.
    How do you explain that discrepancy from most of the FBI 
and Department of Justice officials and Andrew McCabe thinking, 
not a problem, it was the ``responsible thing'' to do?
    Mr. Horowitz. Look, I cannot explain why that view would be 
there. I think it is perfectly understandable why, if you are 
in the Deputy Attorney General's Office, whether you are the 
Deputy Attorney General or right below the Deputy Attorney 
General, to have someone on your staff doing what was going on 
and not telling anybody is highly problematic. And as we point 
out here, the net result of that is the Deputy Attorney General 
was signing a warrant that did not include key information that 
someone on her staff knew and had told the FBI, but the FBI had 
not come back and told the Justice Department. That was the net 
outcome of that. That is a problem.
    Chairman Johnson. Again, I am seeing Andrew McCabe's 
fingers all over this thing. I am also seeing him saying he 
cannot recall 26 times on significant issues. I am not buying 
it.
    Let me go back to the State Department involvement. I 
realize that you are limited, but I just want to ask some 
questions. Are you aware of why high-level State Department 
officials were meeting with Steele and forwarding his reporting 
to the FBI?
    Mr. Horowitz. The only thing I could say is from speaking 
with Ms. Kavalec, it was because she thought she had to tell 
them because they needed to know. But as to the others, why 
they were doing what they were doing, I do not know the answer.
    Chairman Johnson. Did you obtain any information, meeting 
notes or any other documentation, based on those meetings and 
contacts?
    Mr. Horowitz. We obtained certain information from the 
State Department, including, for example, Ms. Kavalec's notes, 
and we were able to speak with her.
    Chairman Johnson. You did request interviews with Jonathan 
Winer, right?
    Mr. Horowitz. Correct.
    Chairman Johnson. Do you know why he refused to cooperate?
    Mr. Horowitz. I do not know.
    Chairman Johnson. Why did you want to interview him? What 
information did you feel he had that you wanted to know?
    Mr. Horowitz. Precisely because of his interactions with 
Mr. Ohr and Mr. Steele, much like we wanted to talk with Ms. 
Kavalec, because we wanted to tie off an understanding as to 
what was happening between the Justice Department and the State 
Department.
    Chairman Johnson. On September 30, 2016, Peter Strzok texts 
Lisa Page, ``Remind me tomorrow what Victoria Nuland said.'' 
Did you ever find out from Lisa Page what Victoria Nuland had 
told her somewhere on or about September 30th?
    Mr. Horowitz. I do not recall as I sit here whether we 
heard about it. I would have to follow up with that, Senator.
    Chairman Johnson. Senator Peters, do you have--I am going 
to organize my thoughts here. Do you have some other questions?
    Senator Peters. I do. Yes, thank you, Mr. Chairman.
    Mr. Horowitz, in addition to your role as the DOJ Inspector 
General, you also serve as the Chair of the Council of 
Inspectors General on Integrity and Efficiency. I have a 
question. I know you have addressed this somewhat with a 
previous question, although I was out voting at the time. If 
you could speak a little bit again to the importance of the 
Inspector General independence and, in particular, why CIGIE is 
important to the work of Inspectors General and what we need to 
do to strengthen that organization as it ties into the general 
theme of why independence is so important, that would be very 
helpful.
    Mr. Horowitz. Absolutely. So the foundation of what we do 
as Inspectors General is our independence, is our ability to 
both report to our agency heads and Congress about what we 
find. We are not, very importantly, untethered from the 
departments we are in but, rather, serve that dual purpose and 
that ability to report to both. And the independence is 
critical because we have the ability to get information like we 
did here, to use our own judgments without influence from the 
leadership of the Justice Department, the FBI, or others, but 
to make unbiased decisions based on our historical reviews of 
Department activities. And that is critical.
    The foundation also is our ability to be transparent and 
our ability to produce reports like this so that the public can 
decide for themselves what they think of our factual findings, 
which hopefully are 100 percent accurate. And I note here no 
one is taking issue with our factual findings but, rather, 
inferences drawn from them, and that is critical.
    So we have to be able to do that. We have to be able to 
have robust dialogue. As I mentioned earlier, the fact that I 
may disagree or the Attorney General may disagree with me is 
not a problem. In fact, it in some respects demonstrates the 
importance of our independence and our independence.
    Some of the things that CIGIE does, that is important is 
pull together all 73 Federal IGs and bring us together for 
common goals, common purposes, common issues that we should 
have oversight of, training, but most importantly, being able 
to advance independence and transparency in the government, 
represent the taxpayers in our agencies, support the ability to 
get information out there to the public so that the taxpayers 
know where their money is going, how their money is being used, 
whether programs they are authorizing--in this case, FISA--that 
are highly intrusive programs are being used wisely or not 
being used wisely, and making recommendations to fix them, and 
then doing follow-up to make sure that is done, and being able 
to come up here, frankly, like I did for many years before this 
Committee and the Chairman on access to records and other 
issues that we were having problems with so we could do our 
jobs.
    In fact, this Committee, as it is aware, this report would 
not have been possible but for the IG Empowerment Act that you 
all passed, because this was one of the areas we were being 
hamstrung on in being able to oversee.
    And so that is the kind of independence we need. We need, 
for the reasons I mentioned earlier, testimonial subpoena 
authority. We cannot get relevant evidence at key times, 
including when individuals resign on the eve of being 
questioned by IGs, contractors who get sometimes tens, hundreds 
of millions of dollars, at some agencies billions of dollars in 
contracts potentially, and grant recipients who get a 
considerable amount of money.
    So there are a lot of tools we need to further our efforts. 
The Committee has always been very supportive of our work, and 
I certainly appreciate it, and I know as Chairmen and Ranking 
Members you both led the way on that for us.
    Senator Peters. Mr. Horowitz, as our Committee states in 
questionnaires that we present to every nominee who comes 
before us, ``Protecting whistleblower confidentiality is of the 
utmost importance to this Committee,'' something that, as you 
know, is absolutely vital for us to do our work in oversight. 
But, in your words, why are whistleblowers important, and why 
is protecting whistleblowers of critical importance?
    Mr. Horowitz. So precisely for the reasons you indicated, 
Senator. We get a significant amount of our information from 
individuals who are willing to blow the whistle. Some call 
themselves whistleblowers. Some do not call themselves 
whistleblowers. But they are willing to come in and blow the 
whistle on wrongdoing and misconduct.
    In July, we issued a report at CIGIE, the Council of IGs--
it is on our website--about cases that move forward precisely 
because whistleblowers were willing to come in and report to 
us. Many of them are willing to come in and use their names, 
have their identities known, and are not afraid to do it. They 
are incredibly courageous for doing that. But they do it. Many 
are afraid and do not want their names known. They want to be 
anonymous. Others send us information through our hotlines, and 
we never learn their names. It does not mean we cannot follow 
up on it, but what we have to do in those instances in 
particular is see if we can corroborate the information. And 
that is really what we are charged with doing. We want 
information. We want people to come in. We get in my office 
over 10,000 calls to our hotline a year. We have to sort 
through them. Not all of them develop into leads. Not all of 
them, when we investigate them, develop into findings. But they 
are critically important, and that ability to come in and 
without fear of retaliation or the threat of retaliation is 
critical. And we as IGs have to do our job not only educating 
people so they will come in, but also making sure that if 
anybody is threatened with retaliation, we do our jobs to 
ensure that there is accountability if that occurs.
    Senator Peters. I certainly get this from your testimony, 
but I just wanted to reiterate and get your response. It seems 
to me, based on the importance of confidentiality and the fact 
that you do not just act based on a confidential report, you 
actually have to corroborate it with actual evidence, but you 
mentioned how important confidentiality is, so I suspect that 
identifying the identity of a whistleblower without their 
consent would likely have a very significant chilling effect on 
whistleblowers generally. Is that an accurate statement? If you 
could expand.
    Mr. Horowitz. That is a fair statement, and, in fact, 
Congress in the IG Act has told us we are not allowed to 
disclose whistleblower identities precisely because of that 
reason unless there is a legal requirement that we do so, 
unless we are unable through other means to protect their 
identity. So people who come forward, it takes great courage.
    My first involvement in this as IG was when I walked in and 
Fast and Furious was ongoing. We had courageous whistleblowers 
from ATF come in and report that information to us. Most of 
those individuals put their names with the information. But 
people should not have to do that. That does not mean their 
information is no less important that we consider, but it does 
mean, as you indicated, we do not act on purely anonymous, 
uncorroborated information. The obligation is then on us to 
corroborate the information and be able to move forward. But it 
takes great courage to come in as a whistleblower. We have to 
protect identities as the law requires us to do as IGs. And we 
have to make sure, if there is retaliation or threats of 
retaliation, that we take action.
    Senator Peters. So in September, the DOJ's Office of Legal 
Counsel (OLC) issued an opinion that attempted to justify 
inappropriately withholding an intelligence community 
whistleblower disclosure from Congress, as I am sure you are 
very aware of. What is your view of the Office of Legal 
Counsel's opinion in that case?
    Mr. Horowitz. So in response to that, one of the things we 
did as the Council of Inspectors General is put together a 
letter that we sent to the Office of Legal Counsel on behalf of 
the IG community--it is posted on our website--that expressed 
our serious concern about an IG's inability in that instance to 
be able to present the information that he believed should go 
to Congress in that circumstance. And that is something that 
concerns all of us in the IG community.
    Again, the law as it is set up provided a mechanism by 
which an allegation could get to Congress. It required a 
judgment by the IG, and then it required Congress to be given 
that information, and then, frankly, it is up to Congress to 
decide what to do with that. It does not have to act on that. 
It can act on that. It makes, obviously, in all instances its 
own determinations. But that is a process that Congress 
carefully considered and put in place in the law. I am of the 
view and we were of the view as the IG community that that is 
the way the process should have played out.
    Senator Peters. So the letter you reference from October 22 
I have, Mr. Chairman, if I could enter that into the record 
without objection.\1\
---------------------------------------------------------------------------
    \1\ The letter referenced by Senator Peters appear in the Appendix 
on page 87.
---------------------------------------------------------------------------
    Chairman Johnson. Without objection.
    Senator Peters. Thank you.
    One final question. I understand that the Office of Legal 
Counsel responded on October 25th to this letter. Are you 
satisfied with that response? If you could elaborate.
    Mr. Horowitz. They ultimately responded in the way they 
did. We had a respectful dialogue back and forth. As I said 
earlier, as an IG I did not take this job to be in agreement 
all the time with everybody. We disagree, as our letter says. 
We stand by our views in our letter. OLC has their point of 
view, and I will let readers--those are both public, and, 
again, the public should make their own determination. That is 
really what we are foundationally about as IGs, is putting out 
information and letting the public, an educated and informed 
public, read them and make their own decisions.
    Senator Peters. So I gather, if I may summarize, as a 
professional, highly trained IG, you were not satisfied with 
the response.
    Mr. Horowitz. I stand by our letter and our legal position 
and our views.
    Senator Peters. Thank you.
    Chairman Johnson. Thank you, Senator Peters.
    Let me just quick talk a little bit about whistleblowers. I 
would share Senator Peters' and I think everybody on this 
Committee's and your desire to afford those whistleblower 
protections. There is no doubt about it. I am shocked, quite 
honestly, coming from the private sector at the level of 
retaliation against people that come forward. But I do want to 
clarify the law.
    As Inspectors General, you are by law barred from 
providing--or basically blowing the confidentiality, 
identifying the whistleblower. But the statute actually does 
contemplate if somebody is accused of something by a 
whistleblower and they are in a court of law, it actually 
contemplates the person being accused being able to confront 
his accuser--correct?--the whistleblower.
    Mr. Horowitz. It basically says by operation of law. It 
would be up to the judge to make a consideration of that, but 
certainly, if it was in a criminal case and you intended to 
rely on the witness, the witness would have to be there. What 
you would try and do--I mean, in police corruption cases, I 
have had this issue, and you have some people willing to come 
forward and some people not willing to come forward. If they 
are not willing to come forward, you have to figure out how 
that information, if possible--and it not always is--if 
possible, can be translated into the Federal Rules of Evidence 
allowing that information in a courtroom.
    Chairman Johnson. Again, there is no absolute statutory 
protection in terms of a whistleblower's confidentiality.
    Mr. Horowitz. The IG Act says we have an obligation to keep 
it unless the law requires us to do otherwise.
    Chairman Johnson. I just want to kind of tie up a few 
things here. I have a lot of questions, which we will submit as 
questions for the record,\1\ and we would appreciate you being 
responsive on that.
---------------------------------------------------------------------------
    \1\ The questions of Senator Johnson appear in the Appendix on page 
102.
---------------------------------------------------------------------------
    Real quick, going back to the Bruce Ohr activity in terms 
of being a conduit between Christopher Steele and the FBI, 
Peter Strzok in your report has handwritten notes which pretty 
well demonstrate he knew about Ohr's activity. And yet in his 
interview with the Inspector General team, he denied that he 
was aware of what Ohr was doing. Are you buying his denial?
    Mr. Horowitz. I would have to go back and, frankly, refresh 
my recollection on the notes versus what he told us. I would 
want to just double-check on the breadth of what he knew 
because Bruce Ohr having 13 meetings, he clearly knew, for 
example, about the Manafort-related meetings because he was at 
some of the Manafort-related meetings.
    Chairman Johnson. OK. We will put that in questions for the 
record.
    I do want to talk a little bit about monitoring or 
surveiling the--what is the euphemism? ``Consensual 
monitoring''? In other words, you are wiring somebody to 
surreptitiously record----
    Mr. Horowitz. Right.
    Chairman Johnson [continuing]. Someone associated with the 
Trump campaign versus the Trump campaign. I think it is a 
difference without a distinction, but there is a distinction 
because there is a difference in terms of what authority, what 
approvals the FBI would have to get. Correct?
    Mr. Horowitz. Correct. That is the reason for the 
distinction, but I agree with you, there is varying degrees 
here of what occurred.
    Chairman Johnson. So they were trying to be pretty 
scrupulous about it, saying, ``Oh, we are not surveiling the 
campaign. We are just surveiling people associated with the 
campaign.''
    Mr. Horowitz. So what ended up happening here is, as you 
said--and we will try and--what they did was they took 
individuals, informants that were signed-up informants for the 
FBI, wired them up so they could be recording conversations 
they had without the person they were speaking with knowing 
that they were being recorded. That is in essence what a 
consensual monitoring is.
    Chairman Johnson. It sounds really close----
    Mr. Horowitz. One party's consent----
    Chairman Johnson. It sounds really close like you are 
monitoring the campaign, but, again, just lay that aside. That 
is my own personal opinion.
    Did you ever determine why the FBI changed its opinion? I 
think early on when they interviewed--and, again, this was not 
exactly done aboveboard, but they interviewed Michael Flynn. At 
that point in time, I think the agent did not feel that Michael 
Flynn was dishonest with him. Somehow that changed. Do you have 
any idea why that opinion changed?
    Mr. Horowitz. I do not know. I have heard that, but we 
actually have no insight into what happened there on that case 
specifically.
    Chairman Johnson. A quick follow-up on Senator Paul's line 
of questioning, and we spoke about this a little bit earlier, 
too. There really are a lot of controls in current law that, 
had they been followed, the Woods Procedure, other requirements 
that the FBI and everybody knows this, they have to be 
scrupulously accurate, so there are plenty of layers of control 
over this FISA application. Correct?
    Mr. Horowitz. There are a lot of layers of control.
    Chairman Johnson. And I realize your limitation. You cannot 
really recommend legislation. You have to kind of stay within 
your lane at the Justice Department. But do you really think 
another layer of controls is going to fix this problem? Because 
this was caused by people circumventing----
    Mr. Horowitz. Right. There are certainly some additional 
controls that could help, for example, on some of the informant 
activity and others.
    With regard to the FISA, I agree, I think there is--and 
this is at the hearing last week and this week--real questions 
about are there legislative--does there need to be legislative 
activity here? And, of course, also now the FISA Court has put 
out its order, and they are going to have some involvement, 
obviously, in a significant way in that decisionmaking as well. 
That is well beyond the Executive Branch figuring out which----
    Chairman Johnson. My own personal opinion for somebody who 
is definitely supportive of the FISA Court, largely because we 
were told, well, show us where the abuse has been, that these 
applications are approved at such a high level because it is so 
rigorous, it is so scrupulously accurate. Now, that has been 
completely blown. I think the FISA Court is in jeopardy, 
personally, and I view that as a very serious issues in terms 
of our national security. I think it was James Lankford talking 
about that, so I agree with his concerns.
    The final two questions really speak to the limitations 
that you have in terms of conducting an investigation like 
this. So real quick, who couldn't you investigate? Or what 
couldn't you investigate? Who couldn't you talk to that, if you 
had been able to, you would have been able to tell a fuller 
story here? Because there is still a bigger story to be told.
    Mr. Horowitz. So our review, as we made clear here, is 
about the Justice Department and the FBI's handling of the 
opening of the Crossfire Hurricane investigation and the Carter 
Page-related FISAs, along with the FBI's activities on their 
confidential human sources and surveillance that the FBI did. 
We did not go and look at or try to assess allegations about 
what the State Department activities----
    Chairman Johnson. So you would have kind of liked to have 
known that, right?
    But you could not do it.
    Mr. Horowitz. We certainly wanted to know from the State 
Department side, which is why we went to Mr. Winer, what Bruce 
Ohr and Mr. Steele's activities were with them. What we were 
not trying to figure out is separately what the State 
Department might have been doing on their own or their own 
interests if they had any. I do not know as I sit here today if 
they have any.
    People have asked questions about what did other 
intelligence agencies know. If that information was sitting in 
the FBI's files, we had access to it. If it is something they 
did separate and apart from the FBI, that was beyond the scope 
of this review.
    Chairman Johnson. But you would kind of like to know how 
George Papadopoulos met all these individuals who just happened 
to be connected in different ways.
    Mr. Horowitz. I think you would want to--it would be 
interesting to know a lot of pieces of information that are 
strands here. I do not necessarily believe it would have--well, 
based on the access we had at the FBI and the information we 
had at the FBI in terms of the FBI--what affected the FBI's 
decisions, I have no reason to think there is something else 
out there that we did not see.
    Chairman Johnson. OK. This is very similar, but what other 
big questions are outstanding?
    Mr. Horowitz. It depends what--at the FBI? I am not sure 
what other questions are out there other than what I mentioned 
earlier, which is how did all of these failures in the FISA 
process that is layered with all of these controls happen and 
why. And I know that is a big question for people to know an 
answer to, and I understand why. But, at this stage that I 
think we did not get good explanations about, and that was 
something we frankly would have liked to have gotten good 
explanations about.
    Chairman Johnson. I want to thank you and your team for 
really an extraordinarily good piece of work here, 
understanding the limited nature of the scope. We will be 
providing additional questions for the record. We have 
obviously been looking for this to guide our actions, and one 
of the reasons I asked those last two questions is that will 
also help guide our future oversight as well. You are obviously 
steeped in this. You have the details. So I would just ask your 
entire team, who else would you want to have interviewed that 
you did not have access to? What other questions do you think 
remain? And I will just kind of throw that out as an open-ended 
question for our questions for the record.
    Mr. Horowitz. OK.
    Chairman Johnson. But, again, I want to thank you for your 
integrity, for all your hard work and efforts. This is 
unbelievably important what you have revealed, and we have a 
lot of work ahead of us.
    Senator Peters, do you want----
    Senator Peters. That is good.
    Chairman Johnson. OK. With that, the hearing record will 
remain open for 15 days until January 2nd at 5 o'clock p.m. for 
submission of statements and questions for the record. This 
hearing is adjourned.
    [Whereupon, at 12 o'clock p.m., the Committee was 
adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                                 <all>
</pre></body></html>
